<html>
<title> - HEARING ON COAST GUARD ICEBREAKING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                        COAST GUARD ICEBREAKING

=======================================================================

                               (110-154)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure







                  U.S. GOVERNMENT PRINTING OFFICE
43-754 PDF                WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)










        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Allen, Admiral Thad, Commandant, United States Coast Guard.......     6
Bement, Arden L., Director, National Science Foundation..........    40
Treadwell, Mead, Chairman, Arctic Research Commission............    40
Weakley, James H.I., President, Lake Carriers' Association.......    40

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    58
Stupak, Hon. Bart, of Michigan...................................    71

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Allen, Admiral Thad W............................................    76
Bement, Jr., Arden L.............................................   216
Treadwell, Mead..................................................   227
Weakley, James H.I...............................................   238

                       SUBMISSIONS FOR THE RECORD

Allen, Admiral Thad, Commandant, United States Coast Guard:

  Insert for the record..........................................    13
  Insert for the record..........................................    24
  Insert for the record..........................................    26
  Insert for the record..........................................    28
  Insert for the record..........................................    32
  Insert for the record..........................................    38
  U.S. Coast Guard East Coast Domestic Icebreaking: A Capability 
    Assessment, January 2002.....................................    82
  U.S. Coast Guard East Coast Domestic Icebreaking: Mission 
    Analysis Report - Part 1, executive summary, January 1997....   134
  Great Lakes Icebreaking Mission Analysis Report, June 5, 1997..   139
Bement, Arden L., Director, National Science Foundation, letter 
  to the President of the United States from Sarah Palin, 
  Governor, State of Alaska......................................   224
Treadwell, Mead, Chairman, Arctic Research Commission, memorandum 
  for Chairman, Joint Chiefs of Staff, from Victor E. Renuart, 
  Commander, U.S. Northern Command, Norton A. Schwartz, 
  Commander, U.S. Transportation Command, and Timothy J. Keating, 
  Commander, U.S. Pacific Command, regarding icebreaker support..   237



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                   HEARING ON COAST GUARD ICEBREAKING

                              ----------                              


                        Wednesday, July 16, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. [Presiding.] Ladies and gentlemen, we will 
call this hearing into order. This Subcommittee convenes today 
to consider our nation's icebreaking needs, as well as the 
resources available to meet these needs.
    We convene this hearing at a critical time in history, when 
the continued use of fossil fuels is contributing to changes in 
the world's climate that appear, in turn, to be causing rapid 
melting of polar ice--an occurrence that will likely have 
significant consequences for the United States and, indeed, for 
the world.
    I want to thank Congressman Larsen, who specifically 
requested that we hold this hearing, for his dedication to 
ensuring that we are prepared to meet America's interest in the 
polar regions.
    The Coast Guard's icebreaking responsibilities can be 
divided into two categories: polar icebreaking and icebreaking 
along domestic waterways, particularly on the Great Lakes and 
along the East Coast. Today's hearing will examine anticipated 
needs and current capabilities in both areas.
    In the Arctic, the melting of polar ice packs is 
accelerating to the point that the National Snow and Ice Data 
Center has reported that, by September of this year, the North 
Pole may briefly be ice-free. The melting of polar ice is a 
catalyst for what appears to be increasing interest in the 
creation of new shipping passages, particularly in the Arctic, 
as well as the new scramble for the assertion of national 
control over natural resources.
    As shipping traffic increases in the polar regions, the 
Coast Guard may need to expand its presence to provide many of 
its traditional services, including search and rescue 
operations. Additionally, icebreaking capacity is required to 
resupply the Antarctic, the research station in McMurdo.
    Unfortunately, the Coast Guard currently has more limited 
polar icebreaking capacity than at any time since World War II. 
The service's two heavy icebreakers, the POLAR STAR and the 
POLAR SEA, have now both exceeded their intended 30-year 
service lives. The POLAR STAR has been placed on caretaker 
status. The POLAR SEA is scheduled to undergo a major 
maintenance. Both vessels will need hundreds of millions of 
dollars of repairs and upgrades, if they are to continue in 
service.
    The Coast Guard's only other polar icebreaker, the cutter 
HEALY, was commissioned in 2000, and has many years of service 
left. Unfortunately, the HEALY does not offer the same 
icebreaking capabilities as the POLAR STAR or the POLAR SEA.
    In preparation for the opportunities and challenges that 
will be created by the rapid changes occurring in the polar 
regions, Congress must take a comprehensive look at our 
nation's entire range of polar mission needs.
    We look forward to the testimony of Admiral Thad Allen, the 
commandant of the Coast Guard, regarding the Coast Guard's 
specific mission priorities in the Arctic and the Antarctic. I 
know traditionally, the Coast Guard's polar icebreaking 
missions have been conducted largely in support of the National 
Science Foundation, which now pays the HEALY's operating and 
maintenance costs.
    However, the foundation has suggested that alternatives not 
involving the use of military vessels may potentially meet its 
research needs in a more cost-effective and efficient manner.
    If that is the case, we must carefully examine whether the 
United States should build new icebreakers, and, if so, what 
specific purposes they should be built to serve. Further, we 
must assess how all of the parties that would benefit from the 
construction of new icebreakers can participate equitably in 
their capital costs.
    The other critical icebreaking missions performed by the 
Coast Guard involve breaking ice on the Great Lakes and along 
the East Coast of the United States. From Maine as far south as 
the Chesapeake Bay, the Coast Guard relies on 140-foot 
icebreaking tugboats and coastal and seagoing buoy tenders to 
conduct icebreaking operations.
    Put simply, these operations are essential to ensure that 
the heating fuel that keeps millions of East Coast residents 
warm in the winter reaches them as needed.
    Icebreaking on the Great Lakes is currently conducted by 
the Mackinaw, a 240-foot dual-purpose buoy tender, two 225-foot 
buoy tenders and five 140-foot icebreaking tugboats. 
Unfortunately, these vessels do not appear to be providing all 
needed icebreaking services on the Lakes, across which 
extensive shipments of coal and other raw materials are moved, 
even in the dead of winter. As a result, during last winter, 
several vessels on the Great Lakes suffered ice-related damage.
    Today's witnesses include Mr. James Weakley, president of 
the Lake Carriers' Association, who will speak in more detail 
about our icebreaking needs on the Great Lakes.
    Additionally, we will hear from the National Science 
Foundation and the Arctic Research Commission regarding their 
specific research support needs, as well as the growth being 
observed in shipping and other activities in the polar regions.
    We have joined these three organizations on a single panel 
in an effort to hear the unique perspectives of the agencies 
and commercial interests that are in essence consumers of the 
icebreaking services provided by the Coast Guard, and we look 
forward to their testimony to help inform our understanding of 
the multiple facets of our nation's icebreaking needs.
    And with that, I yield to the distinguished Ranking Member 
of this Subcommittee, Mr. LaTourette.
    Mr. LaTourette. Well, thank you very much, Mr. Chairman, 
and thank you for having this hearing. And thanks also to 
Chairman Oberstar, who has a great interest in this issue, as 
well.
    The Subcommittee is meeting this afternoon to continue its 
oversight of the Coast Guard's icebreaking program and to 
examine the current icebreaking fleet and the assets level 
necessary to meet forecasted missions needs in this area. Coast 
Guard icebreakers allow the winter movement of maritime 
commerce through the Great Lakes and into ports of the 
Northeast.
    I am concerned, however, that the current icebreaking fleet 
is unable to carry out the full mission load in heavy ice years 
like we have experienced in the last several years in the Great 
Lakes. Several Members, including Chairman Oberstar, have 
requested that the Coast Guard consider transferring an 
additional icebreaking tug to the Lakes. However, at this 
moment in time, that request has been refused.
    I would urge the service to conduct a review of icebreaking 
needs to determine how the Coast Guard can best carry out 
icebreaking missions nationwide. I am mostly concerned about 
the service's three Polar class icebreakers and the continued 
transfer of budgetary authority for these vessels to the 
National Science Foundation. This arrangement leaves the Coast 
Guard crews and operations dependent on decisions that are made 
outside of the service.
    This year, the NSF has informed the Coast Guard that it 
does not plan to utilize the POLAR SEA for the annual breakout 
of the McMurdo Station in Antarctica, and that it does not plan 
to provide funding to keep the POLAR STAR in caretaker non-
operational status. Further, the NSF has contracted with a 
vessel owned and operated by the Swedish government to carry 
out missions in Antarctica this winter.
    I hope that the witnesses will share with the Subcommittee 
how such a contract provides a better deal to the American 
taxpayers than does the use of the POLAR SEA.
    The continued availability of Coast Guard icebreakers is 
necessary to protect American national security and economic 
interests, both domestically and in the Arctic and Antarctic. 
As such, it is extremely important that the administration 
develop a comprehensive plan to meet the current and future 
mission needs.
    I hope that the witnesses will update the Subcommittee on 
the development of such plans. I look very much forward to 
hearing from all of our witnesses--in particular, Admiral 
Allen, who is first up. And I see that he has come prepared 
with a map that looks familiar to me. And he gave us a little 
presentation on his kind visit to northeastern Ohio a little 
while ago, and I found it to be more than informative, and I am 
sure the other Members of the Subcommittee will, as well.
    I thank you, Chairman, and yield back.
    Mr. Cummings. Thank you very much, Mr. LaTourette.
    Again, I want to now recognize Mr. Larsen. Again, Mr. 
Larsen, I want to thank you for requesting this hearing and all 
that you have been doing in regard to this issue.
    Mr. Larsen. Thank you, Mr. Chairman. I want to start by 
thanking you, as well, for holding this hearing.
    As you know, I requested that the Committee hold the 
hearing on the Coast Guard's polar icebreaking fleet, and so, I 
am very interested to hear from the Coast Guard on this issue 
and hope that it will be a productive and informative hearing 
for everyone.
    I have serious concerns about the future of the Coast 
Guard's polar icebreaking fleet. Two of the three multi-mission 
icebreakers, the POLAR SEA and POLAR STAR--both of which are 
homeported in Seattle--are nearing the end of their service 
lives. The POLAR STAR, as we have heard, is in caretaker status 
and is close to being decommissioned.
    Our nation's icebreaking capability has diminished 
substantially at a time when those icebreakers are needed more 
than ever. It is expected that vessel traffic in the Arctic 
will increase dramatically as Arctic Sea ice conditions 
continue to change.
    More maritime traffic, especially in such challenging 
conditions, will require an increased Coast Guard presence, and 
I am concerned the Coast Guard does not have the resources and 
assets it needs to carry out increased operations in this 
region. We are in a five-nation race in the Arctic, and running 
fifth.
    I know that Admiral Allen has paid quite a bit of attention 
to this issue over the past few years, and the Coast Guard is 
currently conducting several Arctic initiatives, including 
Arctic Domain Awareness flights, testing of seasonal Arctic 
forward operating locations, waterways analyses and risk 
assessments.
    However, despite the Coast Guard's best efforts to prepare 
for future operations in this region, they do not currently 
have the assets and capability necessary to perform the most 
basic of Arctic operations, conducting patrols and icebreaking. 
And as we have heard, the Coast Guard does not even have 
budgetary and management control over its entire fleet.
    Mr. Chairman, these are serious issues that demand our 
attention. And once again, I want to thank you for holding this 
hearing, and I look forward to hearing from our witnesses.
    Mr. Cummings. Thank you very much.
    Mr. Young?
    Mr. Young. Thank you, Mr. Chairman.
    Again, I welcome the Admiral here and the future witnesses.
    I just hope that this Congress recognizes, although we have 
the hearing about the Coast Guard, and I hope they will bring 
the information to us, that they have not had the control of 
the icebreaking fleet for a period of time. I think that 
unfortunate. We put the fleet totally back within the Coast 
Guard, and that we recognize, as the gentleman from Washington 
said, we are fifth in a five-nation race in the Arctic. And it 
is our Arctic--or at least part of it is.
    You know, Russia has one of the largest nuclear-powered 
icebreakers now in the world. Finland has always been ahead of 
us with icebreaking. They recognize the importance of the 
Arctic for transportation needs.
    I think we ought to address this issue on the congressional 
level, and appropriate the dollars that are necessary to build 
a new Arctic fleet for the future of this great nation. And I 
hope that this hearing will put a little light on this issue, 
and we recognize the importance of it, and we stop spending 
money in other areas and spend it on what is good for the 
domestic Coast Guard facilities in this nation domestically.
    And I yield back.
    Mr. Cummings. Thank you very much.
    Mr. Baird?
    Mr. Baird. I thank the Chairman, and I thank our witnesses.
    Commandant, good to see you again.
    Dr. Bement, as well.
    This is indeed an important issue. I have the privilege of 
serving both on this Coast Guard Committee, and also Chair the 
Research and Education Subcommittee of our Science Committee, 
which works very closely with NSF, of course. So, we have, I 
think, what could potentially be very complementary relations 
here, and I hope that will be the case.
    We clearly have a national security investment and an 
economic investment in a strong polar icebreaking fleet, and 
the fleet in the Great Lakes, as well. We also, at the same 
time, have strong scientific agendas in both of those areas. 
And my hope is that today's hearing will give us an insight 
into how best we can meet both missions.
    I think right now, we are probably not meeting either 
mission as well as we might, and I hope that this Committee, in 
concert with the Science Committee and with NSF and the Coast 
Guard, can work together for both a near term and a long term 
strategy that preserves both missions.
    We have the practice here of introducing things into the 
record. I wish I could introduce the visual aid I asked the 
commandant to briefly loan me. This is, my understanding, part 
of the hull plate of the POLAR STAR. And lest anyone 
underestimate how difficult it must be to make and maintain and 
operate these ships, I lift weights occasionally, and I would 
not want to lift this very often. And this is just a tiny 
portion.
    I am not going to introduce it into the record, but I am 
going to pass it down to my colleagues, so they can have the--I 
am going to throw it to Mr. Larsen here, my good friend, and we 
will see the result.
    But the reason I raise it is because these are really 
extraordinary vessels. They are absolutely essential. They are 
not easy to make. They are not easy to operate. They are not 
easy to maintain. And they are not cheap.
    But the consequence of not making them, maintaining them 
and operating them is far more expensive. And we have to be 
aware of both ends of that cost-benefit equation.
    And I thank the Chairman for holding this, and for our 
witnesses for their service and for their time today. And I 
yield back as I pass this on to my colleagues.
    Mr. Cummings. Thank you very much.
    Let me just, as a housecleaning matter. Congressman Stupak 
had planned to join us. He would have been on the first panel. 
He would have been the first panelist. But unfortunately, he 
got called to another matter with the speaker. He may very well 
join us a little bit later on.
    But without objection, want to submit his statement for the 
record. I hear no objections; therefore, it is a part of the 
record.
    Admiral Allen, we are very pleased to have you with us 
again, and we look forward to your testimony.
    Admiral Allen. Thank you, Mr. Chairman, and good afternoon.
    Mr. Cummings. Good afternoon.

  TESTIMONY OF ADMIRAL THAD ALLEN, COMMANDANT, UNITED STATES 
                          COAST GUARD

    Admiral Allen. Ranking Member LaTourette and the Members of 
the Committee, it is a great pleasure for me to be here today. 
And I thank you for the opportunity to address the Committee on 
this very important topic.
    Mr. Chairman, I will make brief opening remarks and ask 
that my written testimony be accepted for the record.
    I would like to acknowledge the panel that will be 
testifying behind me. Mr. Weakley, Mr. Treadwell and Dr. Bement 
are professional colleagues of mine. I value their inputs. And 
you are going to get a wide range of views, and I commend them 
to you, sir.
    Today, our nation is at a crossroads with Coast Guard 
domestic and international icebreaking capabilities. We have 
important decisions to make. And I believe we must address our 
icebreaking needs now, to ensure we will continue to prosper in 
the years and decades to come, whether on the Great Lakes, the 
critical waterways of the East Coast or the harsh operating 
environments of the polar region.
    The Coast Guard's icebreaker fleet provides a significant 
service for the American public by facilitating the nation's 
ability to navigate U.S. waters, project military-economic 
power, and presence on the high seas.
    Domestically, the Coast Guard icebreakers support federal, 
state and local agencies. They maintain open waterways to 
ensure the continuous flow of commerce, patrol waterways to 
enforce our laws, and protect critical infrastructure and are 
available to assist mariners in distress.
    Domestic icebreaking operations, as you pointed out, Mr. 
Chairman, are accomplished by the Coast Guard Cutter Mackinaw, 
our new fleet of buoy tenders, nine 140-foot icebreaking tugs 
and 11 65-foot small harbor tugs.
    Except for the Coast Guard Cutter Mackinaw, which has 
exceeded performance expectations since its commissioning in 
2006, and our new buoy tenders, the rest of the domestic fleet 
is at or past their designated service lives. We are focusing 
on critical sustainment projects such as a bridging strategy 
until these vessels can be replaced or modernized.
    We are also coordinating our efforts with our Canadian 
counterparts to share icebreaking resources in the Great Lakes 
and the Saint Lawrence Seaway. This arrangement has facilitated 
the movement of more than $334 million of cargo on the Great 
Lakes during the 2006-2007 ice season.
    These strategies are working, and the Coast Guard continues 
to provide critical icebreaking services domestically.
    However, the challenges of developing and executing a long-
term solution is looming, as the domestic icebreaking fleet 
approaches obsolescence.
    Internationally, the Coast Guard's medium icebreaker, 
HEALY, and heavy icebreakers, POLAR SEA and POLAR STAR, 
primarily operate in support of U.S. research interests in the 
Arctic and help maintain routes to supply Antarctica's McMurdo 
station, and subsequently, the South Pole.
    The newest Coast Guard cutter, HEALY, a medium icebreaker, 
was commissioned in 2000, and conducts annual deployments for 
Arctic scientific research as a priority. Operational time on 
HEALY is at a premium, and almost exclusively devoted to direct 
mission tasking of other agencies and scientific organizations.
    Science capacity on ice-capable vessels is critical to 
current research, as I am sure my colleague, Dr. Bement, will 
point out. But the challenge exists beyond science. Changing 
environmental conditions and advances in technology are 
expanding activity in the Arctic region, as potential access to 
new energy reserves and more efficient shipping routes fuel 
demand.
    Continued growth in commerce, ecotourism, exploratory 
activities in the Arctic is increasing risk to mariners and 
ecosystems and creating demand for Coast Guard operational 
competencies and capabilities. We are finding ourselves well 
beyond our traditional science support role in polar regions. 
The need for U.S. law enforcement and lifesaving presence is 
required there now and will increase with time.
    Without question, the U.S. Coast Guard is the agency most 
experienced and capable of safeguarding national interests in 
the maritime domain of the polar regions.
    Unfortunately, as you have noted, we are losing ground in 
the global competition. Russia completes its new generation of 
national nuclear icebreakers next year, guaranteeing Russia 
multiple heavy icebreaking platforms well past the year 2020.
    Last year, Russia completed a 10-year project, launching 
the icebreaker 50 Years of Victory, their largest heavy 
icebreaker, to ensure Russian access to natural resources 
located along the Arctic Basin.
    Like Russia, Germany, China, Sweden and Canada--they are 
all investing and maintaining and expanding their national 
icebreaking capabilities.
    My strong message to you today is that, while U.S. 
strategic interests in the Arctic region expand, both 
domestically and internationally, our polar icebreaking 
capability is at risk.
    Recent reports by the National Research Council and 
Congressional Research Service have accurately described the 
current situation, and I know the Committee is well aware of 
these reports. Without regard to future mission growth, we have 
externally validated a need for a fleet of three Coast Guard 
operated icebreakers.
    Further, the Omnibus Appropriations Act of 2008 has 
required us to report on current capabilities and resources to 
operate in polar regions. We have also included in our fiscal 
year 2009 appropriation request funding to conduct a detailed 
Polar High Latitude Study.
    Finally, the administration is conducting an Arctic policy 
review. Interagency review and coordination are continuing. 
Efforts are focused on completing the policy process quickly.
    Collectively, these actions will create a solid way ahead 
and form a policy basis from which to formulate a solution to 
our long-term icebreaking needs. I support every one.
    My problem, however, is more near term and is becoming 
critical. It is imperative that we retain our current validated 
capability, pending long-range decisions, so that our growing 
responsibilities in the polar regions can be met.
    To that end, it is critical that the current funding 
shortfalls and governance issues related to the operation of 
our icebreakers be addressed. POLAR STAR, which has been in a 
caretaker status for several years, must be retained, pending 
any long-term action.
    I am anxious to work with my colleagues in the 
administration and the Congress to improve the management and 
governance for icebreaker fleet. And my intent here today is to 
generate light, not heat.
    I am concerned that we are watching our nation's domestic 
and international icebreaking capability decline as reliance on 
foreign icebreakers grows. For Coast Guard icebreakers the time 
is now, and my responsibility is clear.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Cummings. Thank you very much, Admiral, and very 
pleased to hear your testimony.
    What are the specific Coast Guard missions? And what is the 
level of mission activity that you envision the Coast Guard 
needing to perform in the polar regions in the coming years, as 
human activity in these regions increase?
    Admiral Allen. Mr. Chairman, everywhere there is water, 
that is subject to our jurisdiction. And now, there is water 
where there did not used to be. And I will tell you, even if 
there was not an issue with receding ice, there would still be 
an issue.
    Any activity that requires Coast Guard regulation, law 
enforcement activity, search and rescue or environmental 
response, takes on a much harder, tougher dimension in polar 
operations. As we see more oil and gas exploration off the 
North Slope of Alaska, more vessel traffic through for 
ecotourism, cruise ships--there is the largest zinc mine in the 
world is north of Arctic Circle in the Bering Straits.
    All of this is increasing traffic through the Bering 
Straits into the Arctic area and creates a demand for the same 
services we would provide at lower latitudes with a degree of 
difficulty associated with maintaining presence and response 
capability up there, sir.
    Mr. Cummings. So, it is clear to you that we now, right 
now, we are in trouble.
    Admiral Allen. Sir, the offshore oil and gas exploration 
structures off the north coast, what we need to understand is 
that they are subject to the same types of requirements as the 
oil and gas exploration in the Gulf of Mexico. And we are 
talking about things like captain to port authorities, oil 
spill response plans.
    As this opens up and activity begins there, how are we 
going to manage oil spill response organizations and make sure 
that the plans are in place? And that is just talking about 
environmental response. The same could be said for search and 
rescue as well, sir.
    Mr. Cummings. Now, the National Security Cutters, such as 
the Bertholf and others, tell me, do they--are they ice-
strengthened?
    Admiral Allen. No, sir, they are not.
    Mr. Cummings. And was that ever considered when we were 
looking at creating them?
    Admiral Allen. No, sir, it was not, because at the time the 
specifications were developed, there was not a huge problem at 
that time with the U.S. icebreaker fleet. HEALY was being 
constructed, and we had stability in icebreaking program.
    Mr. Cummings. And at that time, these things were not--
these problems were not--anticipated.
    Is that right? Is that what you are saying?
    Admiral Allen. Yes, sir. That does not mean, though, that 
at some point in the future we will not move a National 
Security Cutter through the Bering Straits as long as it is 
ice-free and we can operate up there in the proper time of the 
year, sir.
    Mr. Cummings. But I want to go back to what I am asking 
you. In other words, when we were coming up with the plans for 
Deepwater----
    Admiral Allen. Yes, sir.
    Mr. Cummings. --did that issue come up? In other words----
    Admiral Allen. It did, but----
    Mr. Cummings. Hold on. I just want to get my whole question 
out.
    And what changed, if anything, from the time that those 
plans were being made? Because it sounded like you were saying 
to me a little bit earlier--I think you just said this about 2 
minutes ago--was that there were certain circumstances that 
have changed from when you all were planning this. And I am 
just wondering what they might be.
    Admiral Allen. Yes, sir.
    First of all, we do not routinely operate High Endurance 
Cutters, which the National Security Cutters are replacing 
north of the Bering Strait. It usually is not accessible. So, 
that was not present at the time.
    There was stability in the program at the time. The POLAR 
STAR and the POLAR SEA still had many years of service life 
left. And we knew that we were going to be constructing the 
Coast Guard Cutter HEALY, so we basically had separated the two 
programs, because they appeared to be adequately resourced at 
the time, sir.
    Mr. Cummings. Do you believe that the United States should 
continue to meet our polar research needs through the 
construction of vessels that have a dual scientific-military 
mission?
    Admiral Allen. Mr. Chairman, I think we need a mix of 
different kinds of vessels. As Mr. Bement will probably tell 
you, they operate leased vessels, the Nathaniel Palmer and one 
other vessel, that are much more oriented towards scientific 
research and are operated by contractors.
    The issue before the Committee and before all of us, sir, 
is to figure out what other missions need to be performed in 
excess of the science mission, and how you capitalize that and 
how you create that presence and that mission effectiveness. 
And then, how can that also support science?
    I will tell you right up front that the POLAR STAR and the 
POLAR SEA are not optimum science platforms, and I believe Dr. 
Bement would agree with me. But they were constructed to create 
access into the polar regions for all mission sets the Coast 
Guard operates, and science was second.
    The HEALY was constructed with more science space on it, to 
carry more scientists. And I think moving forward, that is a 
discussion we have to have together, sir.
    Mr. Cummings. Is it cheaper to operate an icebreaker with a 
civilian crew as opposed to a Coast Guard crew?
    Admiral Allen. Yes, sir, it is.
    Mr. Cummings. And why is that?
    Admiral Allen. Well, first of all, the manning is much 
different. We man our cutters to be able to handle different 
situations, including fire safety and military operations, the 
law enforcement operations.
    These other ships are built to commercial specs. They are 
operated by civilian crews, and they have a different approach 
on how they would defend the ship against fire and flooding, 
and so forth. So, they are more minimally staffed than our 
cutters, sir.
    Mr. Cummings. So, what you are saying is that, because of 
your, I guess your regs, your regulations and what have you, I 
guess you could--but for the regulations, I guess you could 
actually operate, say, for example, the HEALY, with fewer Coast 
Guard personnel, but because of the regulations, you have to 
have certain personnel on board. Is that it? Is that what you 
are saying?
    Admiral Allen. Yes, sir. I would not say it was 
regulations. I would say it was doctrine how you operate the 
ship--firefighting teams and be able to handle emergencies.
    We did reduce the staffing on HEALY related to helicopter 
operations, which are needed in the polar regions, and have 
been contracting out helicopter services, sir. And the HEALY is 
more lightly staffed than the POLAR STAR and the POLAR SEA.
    Mr. Cummings. Mr. LaTourette?
    Mr. LaTourette. Thank you, Mr. Chairman.
    Admiral, it is nice to see you again. And thank you again 
for coming to northeastern Ohio. The Station Fairport and 
Station Ashtabula are still buzzing about your visit. So, I do 
not know if they have ordered any new uniforms yet, but they 
are still working on that.
    I wanted to talk to you a little bit about the Great Lakes. 
I mentioned in my opening remarks that I believe Chairman 
Oberstar had made a request that assets be transferred to the 
Great Lakes. And it is my understanding--icebreaking assets--it 
is my understanding that that request has not been granted.
    And then, just would like you to walk us through what 
process the service goes through in reaching the determination 
as to when to move assets and the steps that you look at, and 
why, at least at this point, you have reached the conclusion 
that that is not a reasonable request.
    Admiral Allen. Yes, sir. The current distribution of 
vessels, icebreakers and other on the Great Lakes and the East 
Coast, came about due to a mission analysis that the Coast 
Guard did in 1997 for the Great Lakes, and then another one on 
the East Coast in 2002.
    When we first started building the new buoy tender fleets 
that we have right now, our 225-foot tenders and 175-foot 
tenders, we did an analysis of the existing tenders, their 
speed, the new buoy tenders and their speed, what areas they 
could cover, knowing that they were going to be multi-
missioned. They would tend buoys in the warm weather and help 
the icebreaking mission.
    Mackinaw was never an issue. There was always going to be a 
Mackinaw or a replacement for the Mackinaw.
    All that was factored into the coverage when we built the 
new buoy tender fleets in the 1990s into the early 2000s, and 
they were distributed at that point based on these mission 
analyses. We can provide all that detail for the record to the 
Committee.
    What we do since then, if there is a particular season, as 
there was this last year, where it was a little colder than 
normal and we needed assistance up there, as you know, we moved 
a 140-foot icebreaking tug from the East Coast around into the 
Great Lakes, which we can do in any year, sir.
    Mr. LaTourette. Okay. Thank you very much.
    Relative to the Polar icebreakers and this issue of the 
National Science Foundation--and, again, in my opening remarks, 
I mentioned the contract that they have entered into with the 
Swedes--did you have an observation or an opinion as to what 
the impact of having the National Science Foundation basically 
have the budget authority for the icebreakers does to the 
service relative to dollar impact, administration, running of 
the ships?
    Admiral Allen. Well, I have said on several occasions and 
in prior hearings, and I will restate it here, the current 
situation, while well-intended when it was created, is somewhat 
dysfunctional in regards to how we have to manage this, because 
it puts a huge, enormous management burden on the National 
Science Foundation, that puts almost an evidentiary 
responsibility on the Coast Guard to demonstrate what we intend 
to do with the vessels, so they can certify what the funds are 
being used for and they are adequately being spent.
    And I do not begrudge them a bit for doing that, but it is 
very, very cumbersome.
    Mr. LaTourette. If they, in fact, had not entered into the 
agreement with the Swedes, would those have been funds 
available to the Coast Guard for the use of your assets?
    Admiral Allen. At the start of every year, we come up with 
an operating plan. And there is a certain base amount of money 
that is provided in the National Science Foundation budget, and 
I will let Dr. Bement speak to that.
    We provide them a plan. They approve the plan. And that is 
the source of the funds that are transferred from the National 
Science Foundation to the Coast Guard.
    And it varies from year to year based on the amount of 
operations we are conducting and the maintenance required on 
the ships.
    Mr. LaTourette. And do those funds in that budget that you 
lay out at the beginning of the year, are those funds always 
sufficient to the cost incurred by the Coast Guard for those 
missions?
    Admiral Allen. Well, there has been an ongoing issue about 
whether or not, as ships get older--and this is not just to do 
with icebreakers, it could be any ship you are talking about--
they become more expensive as they get older.
    There probably is an added issue of an inflation factor and 
the ability to keep up with the demands for maintenance on the 
ships.
    Mr. LaTourette. And then, the last question--I think the 
Chairman phrased it, or asked the question--are we in trouble 
relative to our icebreaking capabilities compared to others?
    Could you just have a quick rundown of the number of 
icebreakers other countries operating in the Arctic region have 
at their disposal currently today?
    Admiral Allen. I can provide that for the record.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Admiral Allen. But I know, for instance, the Russians have 
more icebreakers than anybody else. And I think it is either 
seven or eight nuclear-powered icebreakers. And they are well 
up into, I would say, between 10 and 15 icebreakers. And 
several of those are what we would call heavy icebreakers. 
Heavy icebreakers have more than 45,000 shaft horsepower.
    The only other country in the world that has icebreakers 
with that capability is the United States Coast Guard, and is 
the POLAR SEA and the POLAR STAR, which are 60,000 shaft 
horsepower rated.
    And when you come down from that, it would be Finland after 
that, Canada, and then Sweden.
    Mr. LaTourette. The issue that I think was raised earlier 
relative to the melting in the ice and the opening, and 
different territorial claims by different countries up in the 
Arctic region relative to natural resources, based upon our 
current level of icebreaking capability in the Arctic region, 
is the Coast Guard in a position to protect and project 
America's interests in this regard?
    Admiral Allen. I think we are holding our own right now. I 
have grave concerns in future years. As the Chairman indicated 
and we found out recently ourselves, we have the possibility 
this year that the North Pole will be uncovered for the first 
time in recorded history.
    So you have the issue of access up there, vessels getting 
up there when it is clear. But with the oil and gas 
exploration, and things that could happen when there is ice 
there, the ability to have access and presence up there for an 
on science mission, I think is a significant issue moving 
forward, especially if there is an expansion of oil and gas 
exploration off the north coast.
    Mr. LaTourette. And the last thing for the record, I think 
in a conversation we had, this business about the ice melting 
has the potential to open up a new shipping lane, a shorter 
shipping lane for trans-Arctic shipping, does it not?
    Admiral Allen. Potentially it does. There are two routes 
that could be opened up.
    One is over the top of Russia, say, from the Barents Sea 
around to Japan, so oil coming from off the Norway coast could 
be transported to Japan without going through the Panama Canal 
or the Suez Canal, and has the potential to shorten the trip by 
about 4,000 miles and the potential to save upwards of $1 
million on each transit.
    The Northwest Passage is a little bit more problematic. 
There are a bunch of islands, as you can see, that are in the 
way. And the ice actually accumulates in there after it drifts 
south in the summer. But I am not sure we know in the future 
exactly when that will be a reliable path.
    I met recently with the head of the A.P. Moller family that 
run the Maersk shipping line in Copenhagen. And they are not 
prepared yet to start putting routes in there, because they do 
not know if it is really going to be sustainable and 
predictable. However, the traffic in and out through the Bering 
Strait, no doubt that is going to be increasing each year.
    Mr. LaTourette. Okay. And with the rising price of fuel, if 
they become sustainable, based upon what you just said, the 
savings could be about $2 million a round trip?
    Admiral Allen. I have heard different estimates, $1 to $2 
million, yes, sir. And those are estimates.
    Mr. LaTourette. Okay. Thanks so much.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Allen, you have answered one of my questions about 
building trends for other countries. And it sounds like I 
underestimated my number being fifth in a five-nation race. It 
might be seventh or eighth in a seven-or eight-nation race in 
terms of trying to stay ahead of other folks, looking at their 
interests in the Arctic.
    But I wanted to talk to you first about the Arctic policy. 
We have had conversations about this. Both certainly agree the 
region holds an importance to U.S. national security, 
sovereignty and commerce.
    I understand that the Coast Guard is planning to submit a 
report on polar mission requirements to Congress soon. Can you 
give us a preview of some of the major conclusions of that 
study?
    Admiral Allen. Well, we are still finalizing it. But what 
we are going to find out is related to some of the comments 
that I have talked about here.
    One of them is the expansion of oil and gas leases up 
there. The Minerals Management Service just did an auction up 
there, and they issued over $2 billion worth of leases--much 
more than they had expected.
    Another example is there are 10 cruise ship passages up 
there planned this summer. We have the prospect that, if the 
water warms, we may have fish stocks move through the Bering 
Sea, and there are no fisheries plans up there on how we would 
manage that.
    But collectively, though, the body of work continues to 
work, sir.
    Mr. Larsen. And as you pointed out in your testimony, is 
that wherever there is water that is under U.S. control, it is 
your job to be there. It is the Coast Guard's job to be there.
    Admiral Allen. Yes, sir. And I am not trying to be glib, 
because I know there are a lot of opinions about why what is 
happening is happening. What I tell everybody is I am agnostic 
to the science. There is water where there did not used to be, 
and I am responsible for it.
    Mr. Larsen. Right.
    Admiral Allen. Yes, sir.
    Mr. Larsen. Which means, if you are responsible for it, we 
are going to have an expectation that you are actually doing 
something about that responsibility.
    Admiral Allen. Yes, sir.
    Mr. Larsen. Which then gets back to Mr. Young's comments 
about making sure that you have the assets to do just that, to 
exercise their responsibility.
    Admiral Allen. Yes, sir. If I can make a quick comment.
    We are taking the assets we have right now and are moving 
them up there in the summer as a risk mitigation factor. It is 
also allowing us to get feedback on how they operate.
    We are sending a vessel through the Bering Straits to look 
at navigation and communications and waterways issues. But we 
will be also reaching out to the native tribes up there, and 
doing some communication with them.
    We are going to put small boats and helicopters up on the 
North Slope. And the first week of August, I will be traveling 
with Secretary Chertoff up there to personally observe what is 
going on, sir.
    Mr. Larsen. You should go up in January with Mr. Young.
    [Laughter.]
    I understand that POLAR SEA completed a deployment to the 
waters in April and May, primarily for the purpose of renewing 
the crew's qualifications. Can you tell us what sort of 
missions the POLAR SEA performed, what it accomplished and 
whether or not the crew was able to fully renew their 
qualifications?
    Admiral Allen. Sir, we moved out into the--through the Gulf 
of Alaska, through the Aleutian Chain up into the Bering Sea. 
We did fisheries patrols, did what we would call Arctic Domain 
Awareness--just up there sensing what is going on, an idea for 
the amount of vessel traffic.
    We did science of opportunity. We got into the very, very 
light ice areas there.
    It was good. We needed to do it. I am glad we did it. I 
appreciate the National Science Foundation support on doing 
that.
    I wish we could have done more. I wish we could have got 
deeper into the ice and spent a longer time there, because 
these competencies atrophy over time, and I am concerned that 
at a certain point, there will not be a baseline level of 
competency to operate these ships, which we are going to need 
to do in the future.
    But there are constraints put on the operation of POLAR SEA 
by the agreements with the National Science Foundation. We did 
what we could.
    Mr. Larsen. What constraints are on it?
    Admiral Allen. Well, we prenegotiate how much we are going 
to use the ship. There is the matter of risk, if you get into 
the ice and you have some wear and tear, or you have issue with 
the propeller, or things that need to be done, number one, that 
increases cost or the risk that the vessel might not be 
available next year when it is going to be in standby for the 
contracted icebreaker for the McMurdo breakout.
    Mr. Larsen. So then, when the crew is not able to fully 
renew their qualifications, in your view?
    Admiral Allen. Well, they atrophy in time. We are okay 
right now, but that is the reason I am trying to press forward 
with a sense of urgency. We kind of have to get this resolved. 
Otherwise, we are going to lose our seed corn.
    Mr. Larsen. And so, it sounds to me like they were not able 
to fully renew their qualifications.
    Admiral Allen. We would have liked to have done more. Yes, 
sir.
    Mr. Larsen. So, what does it take to do more?
    Admiral Allen. Well, I think we need to continue to work on 
the management issues associated with it, and arrive on a 
consensus on how we can sustain the current fleet and the 
competencies in the Coast Guard and still meet the requirements 
of the National Science Foundation. It is going to have to be a 
collaborative effort, sir.
    Mr. Larsen. It sounds like you need a collaborative effort, 
but it also sounds like those limitations are preventing you 
from achieving your mission.
    Admiral Allen. I am concerned about our readiness eroding. 
Yes, sir.
    Mr. Larsen. All right. It sounds to me like you cannot 
achieve the mission that you want to, that you ought to be 
achieving and that we expect you to, because of the 
constraints.
    But thank you very much, Commandant, for answering the 
questions, and look forward to your answers from other Members.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Young?
    Mr. Young. Thank you, Mr. Chairman.
    Commandant Allen, welcome. Good to see you. And you have 
been up-to-speed on this issue for quite a length of time.
    The POLAR STAR was originally scheduled to transit the 
Bering Sea this summer and operate in the north area. And the 
voyage was cancelled. Was that the lack of funds? Or was the 
vessel not operational?
    Admiral Allen. Sir, the POLAR SEA is in commission----
    Mr. Young. POLAR STAR----
    Admiral Allen. --Polar Star, I am sorry, is in commission 
special status right now and is basically laid up at the pier. 
So, it would not have gone anywhere.
    The POLAR SEA deployed. And that was the deployment I just 
discussed, sir.
    Mr. Young. And now, it is not up there, or it is up there?
    Admiral Allen. It has returned, sir.
    Mr. Young. It is not in the Arctic?
    Admiral Allen. No, sir. But the HEALY will be operating 
this summer, sir.
    Mr. Young. Okay. The other one, I have been reading the 
testimony, and I will ask you, because you represent the 
administration, too, because all three witnesses note that the 
administration is conducting a comprehensive Arctic policy 
review.
    What is the timeframe for completing that policy review? 
And will the review include federal infrastructure and needs, 
such as the icebreakers, Coast Guard forward operating policies 
and facilities? And is the secretary as supportive of 
accompanying the commandant to the Arctic this summer? Are you 
going to go?
    Admiral Allen. Yes, sir, with Secretary Chertoff, week 
after next, sir.
    Mr. Young. Okay. Now, but the first part of that question, 
the timetable of the policy review.
    Admiral Allen. Yes, sir.
    Mr. Young. When is it coming out?
    Admiral Allen. As I said in my opening statement, it is 
underway right now, and they are trying to get it done as 
quickly as they can, sir. And the Coast Guard has been involved 
in it.
    Mr. Young. In all due respect, now, is there a timeframe? 
There are three agencies involved, I take it. Is that correct?
    Admiral Allen. Well, sir, this is a complete interagency 
review through the interagency process of the entire----
    Mr. Young. What I am concerned with here--and it is not 
your fault, you know, I have dealt with agencies for a long 
time--that there is a continued, ongoing study or policy 
review, and no results for a period of time.
    Admiral Allen. Yes, sir.
    Mr. Young. I am a little bit intrigued here, because 
supposedly, the North Pole is going to be open, and the Great 
Lakes had three of the worst ice years in history. There is 
always an interesting factor.
    But I think we should get ahead of this now. And it is up 
to you to lead us in the sense, what does this Congress have to 
do? Because you cannot do it out of open sky. We have to back 
you up.
    But until we know the program, we will not know what to do. 
The Chairman will not know what to do. We will not know what to 
do.
    And so, I think that program, as soon as it is finalized, 
is a lot better.
    So, you do not have an answer yet. Maybe the other Members 
will----
    Admiral Allen. I can tell you this, sir. I have been 
involved in the process since it was started. It has been done 
under the auspices of the National Security Council. I am happy 
with the progress. It will be done as soon as it can. You know, 
I am happy where we are at on it, sir.
    As the commandant, I can tell you that.
    Mr. Young. Well, again, I urge those that are in the 
administration to understand--even in the next administration--
is we are going to have, regardless, we are going to have a 
transfer. And I do not want this thing getting behind again, 
because you have just mentioned that Russia has seven nuclear, 
I believe, icebreakers. They have one of the largest in the 
world now. It goes on down the line.
    And the Arctic is where the action is. It is not just going 
to the Bering Straits. I believe, if you will check the globe--
and you have a picture of it here--the majority of the global 
resources that exist in the world today are in the Arctic. They 
are not in the Antarctic. They are in the Arctic.
    And that is not only going to be a shipping channel. There 
is going to be availability for the first time to have the 
ability to take those resources into the northern markets. And 
that is where the Coast Guard has to be involved, because not 
only oil, we have $2.6 billion for the Chucki Sea. Now, the 
North Pole, you have got a picture of the North Pole, the 
possibility of that occurring. But you have all the other 
minerals that are going to be--there is huge abundance up 
there, but never been accessible by mankind before.
    So, you have got a big responsibility. So, I do not want 
this thing to wait for next year or year after, year after that 
or year after that, because I do not think we are doing a good 
service, Mr. Chairman, in all their respects, to the nation as 
a whole. That is all that my interest is.
    Admiral Allen. Yes, sir. And that is my position, and I 
have represented it in the interagency, sir.
    Mr. Young. Thank you.
    Mr. Cummings. Mr. Baird?
    Mr. Baird. Thank you, Mr. Chairman.
    Admiral, based on your comments today and your written 
testimony, and that of others that we have read, as I hear it, 
to summarize, there are sort of three traditional missions of 
the Coast Guard: commerce, national security and public safety, 
sort of making sure all of those work well. And then, there is 
also the science overlay in the case of particularly the 
Antarctic mission, but to a degree, the Arctic mission as well.
    Then I am also hearing that you have got two sort of 
timeframes of problems. You have got an imminent concern that 
you have basically got the POLAR SEA and POLAR STAR, only one 
of which is functional now, and both of which are sort of 
nearing the end of their natural life. But you do not have a 
replacement for either that can do the heavy icebreaking 
mission.
    So, the first question, do you view that your traditional 
missions within the polar regions, as compatible with the 
science mission? So, can you do the icebreaking used to get 
into McMurdo and whatever else needs to be done up north, and 
still carry out your missions?
    Admiral Allen. They are compatible with the science 
mission. But I would tell you--and I would defer to Dr. 
Bement--the POLAR SEA and the POLAR STAR are not optimal 
science platforms, and we know that. They were constructed as 
heavy icebreakers to gain access, command and control, open up 
an area and keep it open.
    Then your ability to do science with whatever is left in 
terms of space and manning on the ship is what you do.
    So, that is true. The POLAR SEA and the POLAR STAR are 
never going to be optimal science platforms, sir.
    Mr. Baird. Okay. But right now, we certainly do not have an 
alternative. We do not have a heavy icebreaker that could do--
bust its way into McMurdo and also serve as an optimal science 
platform, at least within our fleet.
    Admiral Allen. Right. The best hybrid we have right now is 
HEALY. But HEALY, while it is more optimally manned for 
scientific research, has less icebreaking capability and is not 
a heavy-duty icebreaker.
    Mr. Baird. Well, let us look at the capital, the financial 
side of it. So, there are operational budgets. The current 
operational budget, as I understand it, for the heavy 
icebreakers is within NSF's portfolio.
    Admiral Allen. That is correct.
    Mr. Baird. And then, there is also a need for a capital 
budget in two senses. One, short-term needs--Polar Sea, POLAR 
STAR, or at least the case POLAR STAR is----
    Admiral Allen. Laid up, yes sir.
    Mr. Baird. Yes, the POLAR STAR is laid up.
    So, if you were to try to get it operational, what are your 
estimates of what it would take to get the--and let me say, 
there are two timeframes. So, the short term of getting those 
two functional, and then a longer term which this Committee 
needs to look at, I think, in terms of replacing those two 
vessels at some point in the quite foreseeable future. But in 
the short term, we are not going to be able to do it.
    What are your fiscal demands in the short term in a capital 
budget to get the POLAR STAR up to steam?
    Admiral Allen. Sir, the sequence we would envision will be 
something like this. First of all, to keep the POLAR STAR in a 
laid up status requires approximately $3 million a year for the 
personnel and the maintenance that is being done on it. And 
even that does not guarantee that it is going to be ready. And 
I can elaborate on that.
    If we were asked to do it, and the POLAR STAR was brought 
back into commission, we would renovate it and get it up to 
speed for a deployment to McMurdo. We would send it down there, 
and we would basically do an operational test and evaluation. 
That would be somewhere between $8 to $10 million to get the 
ship ready to do that.
    Following that deployment, we would evaluate the condition 
and the functioning of the machinery and the systems on board, 
to see what would need to be done to extend its service life, 
say, seven to 10 years in the same range that we have done to 
the POLAR SEA. So we would have two icebreakers that are 
available to operate while there is a long-range decision made. 
That gets you up into the $60 million range, sir.
    Mr. Baird. So, I actually, I think, misspoke. I said there 
are sort of two timeframes, near term and short term. There are 
actually three. There is the immediate term of keeping the 
POLAR STAR from just, for lack of a better word, going belly 
up. I mean, that is an immediate need.
    Admiral Allen. Yes, sir.
    Mr. Baird. And then you have got a more intermediate need, 
and then the longer term need for probably a completely new 
capacity.
    Could you--by what timeframe--currently, from my reading of 
NSF's testimony, they are contracted to some degree with the 
Oden, which we actually saw them, when we were down there with 
our Science Committee. We saw it starting its run into McMurdo.
    Could you provide, in your judgment--and Dr. Bement may 
have a different opinion--in your judgment by--obviously, this 
year seems committed--by the following year, would that be 
possible, if the Congress provided the necessary funds?
    Admiral Allen. My response to that would be that the POLAR 
SEA would be available as--it will be available as a backup in 
2009.
    Mr. Baird. So, the POLAR SEA could be used by 2009, even 
for----
    Admiral Allen. The plans are to hold the POLAR SEA in 
reserve for 2009, during the austral summer. That is correct.
    Polar Sea could be available the following year in 2010, as 
well.
    We would need to bring the POLAR STAR out and do some work 
on her. So, between 2010 and 2011, you could make that initial 
trip with the POLAR STAR, if the funding were available.
    Mr. Baird. And as I understand it, it is important, in your 
judgment, to keep these vessels operational, both because you 
need them in the interim, but also because you have got to have 
a crew that is familiar with this kind of operation. And as the 
vessels get laid up, you cannot go out and actually have people 
work in the field doing the kind of things they need to do.
    Admiral Allen. Yes, sir. And there is no substitute for 
experience in the ice.
    Mr. Baird. So, if we were to say we want to farm out the 
mission to a foreign country, that reduces our capacity, not 
only in terms of vessels, but crew knowledge, experience, 
training----
    Admiral Allen. It shrinks the base. Yes, sir.
    Mr. Baird. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Coble?
    Mr. Coble. Mr. Chairman, I apologize. I have been back and 
forth from Judiciary, and I may have to be called back now. I 
feel like a monkey on a stick today. But I did not want to miss 
the admiral's testimony.
    Admiral, good to see you again.
    As I understand it, Mr. Chairman, in 2006, Congress 
transferred budget authority for polar icebreaking to the 
National Science Foundation. And they, in turn, reimburse the 
Coast Guard for operations.
    It is furthermore my understanding that the NSF has begun 
to contract with foreign icebreaking companies to fulfill their 
needs in the Arctic. And I want to ask you a couple of 
questions in a just a minute, Admiral.
    But to conclude, Mr. Chairman and my colleagues, I have a 
keen interest in icebreaking. And I am subjectively involved, 
because I used to be stationed aboard a Coast Guard cutter. I 
am sure, Admiral, she has long been decommissioned. I do not 
know where she is now.
    But I would like to encourage our Committee, Mr. Chairman, 
to continue to review the shared responsibilities between the 
National Science Foundation and the Coast Guard with regard to 
polar icebreaking. While I support the mission of both 
agencies, I question whether the current funding mechanisms 
best fit the respective needs of the two organizations.
    And Admiral Allen, what I want to do, I want to put a 
three-part question to you. And I am going to probably have to 
abruptly leave to go back to Judiciary. But my questions to 
you, Admiral, are:
    Has this procedure that I just described affected your 
operations and readiness of the polar icebreaking fleet, A?
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Coble. B, does the current funding arrangement with the 
National Science Foundation allow for adequate maintenance of 
the polar icebreaker fleet, B?
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Coble. And C, what are the long-term implications of 
continuing this funding arrangement?
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    And Admiral, if you--and Mr. Chairman, if you will pardon 
me, I have got to get back to Judiciary. But if you would 
answer those for the record, Admiral, I would appreciate that.
    Mr. Cummings. Thank you very much, Mr. Coble.
    Admiral?
    Admiral Allen. Provide for the record, sir?
    Mr. Coble. Pardon?
    Admiral Allen. Was it to provide the answer for the record, 
sir?
    Mr. Coble. If you would.
    Mr. Cummings. Yes, we would love to hear the answer now.
    Admiral Allen. I can do that, too, sir.
    There is an issue with current readiness, and it is not a--
let me say it up front here. I have all the respect in the 
world for Dr. Bement, and we are good friends and we are 
colleagues. I think we are both in a really tough situation 
here.
    Any time you have one of the three icebreakers that this 
country operates through the Coast Guard that have been 
validated by an external study by the National Research Council 
in a commission special status, you have a readiness problem.
    So, is there a readiness problem? Yes, there is, sir.
    That vessel is tied up. It has got a caretaker crew on it. 
We are making sure the machinery could be brought back in a 
year or so, if it was needed.
    But we have had divers down looking at the hull. We have 
problems with the zinc anodes that are on there that protect 
against corrosion. There is marine growth on it.
    So, even the readiness of the vessel that is laid up 
continues to be an issue with us.
    Is this adequate in the long term? Obviously, it is not. We 
need three polar icebreakers to operate in this country, and 
one is laid up.
    And in the long term, my goal is to stabilize what is going 
on right now and make sure we keep the POLAR STAR where it is 
at, pending the policy resolutions that will lead us to a long-
term solution.
    But our readiness now is not what it should be. I do not 
believe it is adequate, and we have to have a long-term fix, 
sir.
    Mr. Cummings. Well, what about the short term? I know we 
have to have the long term. And I think, as I listen to your 
testimony, just to follow up on what I think Mr. Coble might 
have asked--and I think Mr. Baird may have alluded to this, 
too.
    Where are we--I guess--you just said that we are short one. 
Is that right? But it is actually more than one, isn't it, 
Admiral? In other words, as far as capability is concerned.
    Admiral Allen. Yes, sir. What I am trying not to do is get 
ahead of a policy decision on what the requirements are up 
there. Basically----
    Mr. Cummings. Well, let me----
    Admiral Allen. But there was a report issued in 2006, that 
validated the need for the Coast Guard to operate three 
icebreakers.
    Mr. Cummings. Okay. And----
    Admiral Allen. We are operating two.
    Mr. Cummings. Well, wait a minute. I just want to make sure 
I am clear. I am not trying to----
    Admiral Allen. Yes, sir.
    Mr. Cummings. --put words in your mouth.
    I guess what I am trying to get to is, the two that we 
have, they are not at full operation, both of them. Are they?
    Admiral Allen. They are available for operations. They are, 
sir. The POLAR SEA and HEALY are available for----
    Mr. Cummings. And they can do everything that we would hope 
that they would do.
    Admiral Allen. Yes, sir.
    Mr. Cummings. Right now.
    Admiral Allen. Yes, sir.
    Mr. Cummings. All right. So, we are down one. Is that 
right?
    Admiral Allen. Yes, sir.
    Mr. Cummings. Okay. And so, when you say long range--you 
said maybe we ought to have a long-range plan--I guess what I 
am trying to get to is that, in the short range, right now, we 
do have a problem then.
    Admiral Allen. Yes, sir. And it is because the effort and 
the money that is being transferred is sized to support the 
science mission, not all the missions we need to do, sir.
    Mr. Cummings. I see. And----
    Admiral Allen. I think Dr. Bement would tell you we are 
just fine where we are at, and I understand where he sits on 
that. But I have got other things I have to do out there.
    Mr. Cummings. You would rather not be sharing any efforts 
with the National Science Foundation.
    Admiral Allen. No, I would rather be supporting them 
completely without any money transfers----
    Mr. Cummings. Right.
    Admiral Allen. --and giving him what he needs, and then, 
with the capacity that I have, in addition to the science, be 
creating presence where we need to, based on the evolving 
mission, sir.
    Mr. Cummings. Very well.
    Mr. Baird. Mr. Chairman?
    Mr. Cummings. Yes.
    Mr. Baird. A clarification, if I may. My understanding from 
your written testimony and conversations that we have had in 
the past, when the Chairman asked, do we have three or two 
vessels that can do everything you want, I think there needs 
probably to be clarification. The HEALY is not interchangeable 
with the POLAR SEA. The HEALY has a much different mission.
    So, you could not say, well, we are going to dispatch the 
HEALY to bust its way into McMurdo.
    Admiral Allen. That is correct.
    Mr. Baird. Is that accurate?
    Admiral Allen. Thank you for the clarification.
    Mr. Baird. I think that is really important.
    Mr. Cummings. Well, that is where I was trying to go. But 
in courtesy to Ms. Richardson, Ms. Richardson, thank you very 
much.
    Ms. Richardson. Thank you, Mr. Chairman.
    Admiral, I am a new Member on this team here, so you will 
have to excuse if I ask a few questions that maybe you have 
covered in the past.
    Upon reviewing the background information, it tells me that 
the NSF had provided funding, you know, $55 million, $53 
million in 2006, 2007. And then there was a huge drop, almost 
in half, for 2008.
    Why was this done?
    Admiral Allen. There was not a huge drop. The difference in 
the--excuse me, I am sorry. We have had pretty much stable 
funding from 2006, 2007 to 2008. The 2009 request that is 
currently on the Hill is $3 million less than the prior year, 
which reflects the absence of money to maintain the POLAR STAR, 
ma'am.
    Ms. Richardson. So, I am reading a document that says 
funding NSF reimbursed Coast Guard for polar ops in 2006 was 
$55.8 million, 2007, $53.8 million, and in 2008, 29.8 to-date.
    Admiral Allen. We can update that last figure for you, 
because we had not been through the recent HEALY deployment. It 
was more than that, ma'am. I can do that for that record.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Richardson. And then, my follow-up question is, it 
says--and I realize we have a person from NSF who will be 
testifying shortly--it says here that NSF has increasingly 
opted to use icebreaking funding to contract with foreign flag 
vessels instead of utilizing Coast Guard assets.
    Why is that?
    Admiral Allen. Well, I will let Mr.--or, excuse me--Dr. 
Bement address that. But basically, the cost per day of 
operating a contracted vessel is much less than a Coast Guard 
cutter, because you are buying more with a Coast Guard cutter. 
You are buying a multi-mission platform and crews that can do 
other things.
    If I am sitting at the National Science Foundation, I want 
the best bang for my buck, so I understand what they are doing. 
But the funding mechanism, the management structure that is in 
place right now is not conducive for the long-range health and 
readiness of the U.S. icebreaker fleet.
    Ms. Richardson. So, do you feel comfortable that a foreign 
flag ship has the same security that the Coast Guard would have 
and the same interests and protection of our country as a 
foreign flag vessel?
    Admiral Allen. Well, what they are trying to do is meet the 
requirement to break out the channel into McMurdo Station, so 
vessels can come in and resupply it, for ultimately to resupply 
the South Pole and other science stations that are down there. 
It is basically an icebreaking function.
    I have not addressed the security dimensions of it, and I 
will let the National Science Foundation comment on that in 
their testimony.
    Ms. Richardson. Okay, because to me it is kind of like 
saying, you know, we have TSA at our airports, but we will 
allow, you know, someone from whatever, XYZ country to come in 
and to maintain the whole role. And I am just surprised. You do 
not have a personal opinion on the security of that?
    Admiral Allen. I actually do not have visibility into the 
contracting vehicle and what are the specifications of the 
contract. And I will leave that to Dr. Bement to comment on.
    Ms. Richardson. Okay. My last question is, in 2005, the 
National Security Research Council conducted a study, and they 
found the following things. And I would like to know if you 
agree with those recommendations.
    One, they said that the United States should continue to 
project an active and influential presence in the Arctic to 
support its interests.
    Yes?
    Admiral Allen. Yes.
    Ms. Richardson. The United States should continue to 
project an active and influential presence in Antarctica to 
support its interests.
    Admiral Allen. Yes.
    Ms. Richardson. The United States should maintain 
leadership in polar research.
    Admiral Allen. Yes.
    Ms. Richardson. National interests in the polar regions 
require the United States immediately to program, budget, 
design and construct two new polar icebreakers to be operated 
by the U.S. Coast Guard.
    Admiral Allen. I think we need to ultimately look at the 
replacement of the icebreakers, but I think we need to look at 
the changes in the Arctic and the policy associated with that 
as an interim step to validate that. And that is what is 
happening right now with the interagency review that is 
proceeding.
    Ms. Richardson. Okay. To provide the continuing of the U.S. 
icebreaker capabilities, the POLAR SEA should remain mission 
capable and the POLAR STAR should remain available for 
reactivation.
    Admiral Allen. I would agree. And if possible----
    Ms. Richardson. And finally----
    Admiral Allen. --get the POLAR STAR underway to increase 
the competency of our work force.
    Ms. Richardson. Okay. And finally, the U.S. Coast Guard 
should be provided sufficient operations and maintenance budget 
to support an increase in regular and influential presence in 
the Arctic.
    Admiral Allen. Well, that is a two-part question, because 
currently, the maintenance money resides with the National 
Science Foundation. Without prejudice, I believe the money 
should be in the Coast Guard base, and we should operate it. 
But that is a policy decision to be made.
    Ms. Richardson. Okay. My final question, of all these 
recommendations, since the majority you agreed with, have you 
communicated this to the administration?
    Admiral Allen. I think my views are well known in the 
administration, ma'am, yes.
    Ms. Richardson. Excuse me?
    Admiral Allen. Yes.
    Ms. Richardson. Yes, you have.
    Admiral Allen. Yes.
    Ms. Richardson. And updated that you----
    Admiral Allen. I have been involved in the interagency 
review that is going on right now as far as Arctic policy goes. 
And I have been supported by Secretary Chertoff, and our views 
have been known. Yes, ma'am.
    Ms. Richardson. Okay. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Let me just follow up, because I am just not--I do not want 
to--I know you have got things to do, but I do not want to let 
you go, because I wanted to make sure we are clear on this.
    On the POLAR STAR, it is in bad shape. Is that right? Is 
that a good description? I mean, in other words----
    Admiral Allen. It is tied up in Pier 36 in Seattle and has 
a crew of about 30 on board to keep the vessel painted, keep it 
clean. They test the machinery and roll it over every once in a 
while. But it has not moved in a number of years.
    And the concern we have right now is whether or not there 
is going to be corrosion on the hull due to marine growth. And 
as I said, we put a--we attached to the hull blocks of zinc, 
because they corrode before the hull does. It keeps the hull 
from corroding.
    They are gone. So, we are to the point now, if we are going 
to keep it even in the status that it is in, we are probably 
going to have to do something with the hull. And I have 
directed my engineers to take a look at that.
    Mr. Cummings. So, right now, you are waiting for a report 
from your engineers. Is that right?
    Admiral Allen. Yes, I am.
    Mr. Cummings. And when do you expect that report to come 
in?
    Admiral Allen. Well, they are going to do an internal 
inspection of the ship and make sure that there is no corrosion 
taking place from the inside out and outside in. And that is 
being actively done right now.
    Mr. Cummings. But now----
    Admiral Allen. I discussed it today with my chief engineer.
    Mr. Cummings. I understand.
    What is the worst case, Admiral, with regard to that ship, 
the POLAR STAR?
    Admiral Allen. Well----
    Mr. Cummings. If they come back with a report and it is the 
worst--I mean, within reason, what is the worst case?
    Admiral Allen. I do not think we are going to find anything 
catastrophic. As you saw, sir, when we passed the part of the 
deck plating along, you know, that is the kind of plating that 
is on that ship. What we need to make sure is that, if there is 
something going on, we arrest it right then and take care of 
it, so it does not degrade further, sir.
    Mr. Cummings. I guess what I am trying to get to is, we 
have got a ship. We have got 30 people maintaining it. I guess 
that is a good word. Is that appropriate?
    Admiral Allen. Yes, sir.
    Mr. Cummings. And that ship has not been out of that 
position since when? Where it is right now, how long has it 
been there?
    Admiral Allen. It has been at least 2 years. I will give 
you the exact date, sir, but at least 2 years.
    Mr. Cummings. But at least a year.
    Admiral Allen. Two.
    Mr. Cummings. Two years.
    Admiral Allen. Yes, sir.
    Mr. Cummings. It is sitting there.
    Admiral Allen. Yes, sir.
    Mr. Cummings. And you would agree with me, I think, based 
upon your testimony, that it would--that we ought to--we 
actually need three ships. Right? We need the HEALY, and we 
need this one and the other one. Is that right?
    Admiral Allen. The requirement was validated by the 
National Research Council in 2006, sir. Yes, sir.
    Mr. Cummings. Right.
    Now, has there been any--have there been any requests--I 
mean, has the administration discussed or tried to figure out 
how they want to solve this problem from a financial 
standpoint?
    Admiral Allen. Well, sir, what I believe is--and I will get 
back to the question that Mr. Young asked--the imminent 
interagency report on policy will set the baseline for where 
the federal government goes on this, and I wholeheartedly 
support that, sir.
    Mr. Cummings. And do you know what kind of timetable we 
have on that?
    Admiral Allen. Very soon, sir. But again, I cannot attach a 
date to it, because I am not the controlling officer.
    Mr. Cummings. Now, you know, Admiral----
    Admiral Allen. As I told Mr. Young, we have been--we have a 
very frank----
    Mr. Cummings. I have a tremendous amount of respect for 
you, and that very soon----
    Admiral Allen. I am happy with the progress. I will tell 
you that, sir. And if I was not happy, I would tell you.
    Mr. Cummings. All right. Well, could you kind of let--could 
you give us--obviously, you are not prepared to do it today, 
but we have to deal in some kind of timetables here, or else, 
you know, you will be gone, and we will be up in heaven, and we 
will still be talking about this.
    Admiral Allen. Yes, sir.
    Mr. Cummings. So, I mean, I will be up there with you, 
but----
    Admiral Allen. Yes, sir.
    Mr. Cummings. --we will be hanging out.
    [Laughter.]
    Admiral Allen. We are going to know each other for a long 
time, Mr. Chairman.
    [Laughter.]
    Mr. Cummings. But what I am saying is, we really do need to 
try to move this along.
    Admiral Allen. Yes, sir.
    Mr. Cummings. I am not sure. Mr. Larsen, I think one of his 
concerns was the very issue that--and he can correct me if I am 
wrong--is the very issue that I am raising right now. And I 
wanted--and so, I did not want you to leave unless we kind of 
tried to get to the bottom of this as to--we have got a ship 
sitting there. It is not going anywhere.
    And it sounds like, if we were to try to use it, we are not 
sure whether it is going to--we are not sure--and correct me if 
I am wrong--whether it would be able to do all the things that 
we want it to do. And even if it were, we are not sure of how 
long it would be able to do it. Is that right?
    Admiral Allen. I can give you a more quantitative answer to 
that. We believe that it would take an availability and about 
$8.6 million to make the POLAR SEA ready to go to sea and do a 
mission, sir.
    Mr. Cummings. Okay. And just one last question.
    Did I hear you correct to say that you--you, the admiral of 
the Coast Guard--you are pushing the administration to do, to 
get the resources to get it out there? I mean, to do the 8.6, 
at least? Is that an accurate statement?
    Admiral Allen. The current review that is going on 
regarding Arctic policy is going to address everything, 
including Coast Guard icebreaking and navigation up there. All 
the things that we have talked about are going to be addressed 
in this review, sir.
    Mr. Cummings. Do they ask your opinion?
    Admiral Allen. They did, sir.
    Mr. Cummings. And what was your opinion?
    Admiral Allen. Sir, you know I am not shy. They have got 
it.
    Mr. Cummings. And what was it?
    Admiral Allen. Pretty much what I have said here today, 
sir.
    Mr. Cummings. Very well.
    All right. Thank you very--Mr. Larsen, did you have 
something?
    Mr. Larsen. Just, Mr. Chairman, I would like to enter into 
the record a memorandum from the Chairman of the Joint Chiefs 
of Staff, signed by--or to the Chairman of the Joint Chiefs of 
Staff--signed by the commander of U.S. NORTHCOM, TRANSCOM and 
PACOM, in support of a program for construction of new polar 
icebreakers to be operated by the Coast Guard.
    Mr. Cummings. Thank you very much.
    Ladies and gentlemen, we have--we actually have six votes. 
Therefore, we will--we will adjourn for probably about, a 
little bit less than an hour. That is about how long it is 
going to take to do the votes.
    Mr. Baird. Mr. Chairman?
    Mr. Cummings. Yes.
    Mr. Baird. Before we adjourn, Mr. Coble said he was not 
sure where his ship that he had served on is. I think it is in 
a tall ship museum moored next to the USS Constitution.
    [Laughter.]
    Mr. Cummings. You do not want to know.
    [Laughter.]
    Admiral Allen. Mr. Chairman, will this panel continue after 
the----
    Mr. Cummings. No. Admiral, thank you very much, and we will 
pick up----
    Mr. Taylor. Mr. Chairman?
    Mr. Cummings. Yes.
    Mr. Taylor?
    Mr. Taylor. Admiral, thank you for being here.
    I am curious, what percentage of the total cost of 
operating an icebreaker during wintertime is for fuel?
    And what is leading to that is my understanding that the 
Soviets, 20 or 30 years ago, went to atomic, nuclear-powered 
icebreakers. And I guess you know I have been pushing the Navy 
to get----
    Admiral Allen. Yes, sir.
    Mr. Taylor. --the next generation of cruisers, next 
generation of amphibs.
    Given today's fuel costs, has the Coast Guard run any sort 
of a comparison of--and, quite frankly, given the enormous 
horsepower needs of an icebreaker when it is in operation--have 
you run any sort of cost comparison over the projected 20-to 
30-year life of an icebreaker?
    Admiral Allen. Sir, what I would like to do is take the 
current fuel price, because our projections, when we budgeted 
for this thing 2 years ago, as you know, are way off the scale 
right now. Let us revise that, give you that information. And I 
would be happy to provide that for the record, if that is okay, 
sir.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Taylor. I would--and if you need to pick a number out 
of the sky for an availability, may I suggest that you look at 
an A1B power plant, which is one of the two power plants that 
will go into the next generation of carrier. And I think for a 
couple of reasons, number one, you get standardization of crew 
training. And obviously, there would be some economies of scale 
of buying more of a single power plant rather than having eight 
or 10 different varieties out there.
    So, I am asking specifically----
    Admiral Allen. Yes, sir.
    Mr. Taylor. --if the Coast Guard would look at that as your 
power plant to do a cost comparison with.
    Admiral Allen. We will do that, sir.
    Mr. Taylor. Thank you very much, sir. Thank you, Mr. 
Chairman.
    Mr. Cummings. Thank you.
    We will now adjourn for an hour.
    [Recess.]
    Mr. Cummings. We are very pleased to have Dr. Arden Bement, 
who is the director of the National Science Foundation. Mr. 
Mead Treadwell is the chair of the United States Arctic 
Research Commission. And Mr. James Weakley is the president of 
the Lake Carriers' Association. And welcome.
    And we will hear from you, Dr. Bement?

 TESTIMONY OF MR. ARDEN L. BEMENT, DIRECTOR, NATIONAL SCIENCE 
   FOUNDATION; MR. MEAD TREADWELL, CHAIRMAN, ARCTIC RESEARCH 
 COMMISSION; MR. JAMES H.I. WEAKLEY, PRESIDENT, LAKE CARRIERS' 
                          ASSOCIATION

    Mr. Bement. Thank you, Mr. Chairman, Ranking Member 
LaTourette and Members of the Subcommittee.
    I am pleased to appear before you again to speak on behalf 
of the National Science Foundation. NSF is an agency with an 
extraordinary mission of enabling discovery, supporting 
education and driving innovation--all in service to society and 
the nation.
    In addition, the foundation has been tasked with chairing 
the Interagency Arctic Research Policy Committee, created under 
federal statute to coordinate Arctic research sponsored by 
federal agencies. NSF also manages the U.S. Antarctic Program 
on behalf of the U.S. government, as directed by Presidential 
Memorandum 6646, issued in 1982.
    The Arctic and Antarctic are premier national laboratories. 
Their extreme environments and geographically unique settings 
permit research on fundamental phenomena and processes not 
feasible elsewhere.
    Polar research depends heavily on ships capable of 
operating in ice-covered regions. They serve as research 
platforms in the Arctic and Southern Oceans, and as key 
components of the logistic chain supporting on-continent 
research in Antarctica.
    As a principal source of U.S. support for fundamental 
research in these regions, the NSF is the primary customer of 
polar icebreaker and ice-strengthened vessel services for 
scientific research purposes.
    The NSF's responsibilities take somewhat different forms in 
the Arctic and in Antarctica. My written testimony explains in 
detail how icebreaker requirements differ in each region. But 
in both cases, the question of how best to meet those 
responsibilities boils down to consideration of three factors: 
cost, performance and policy.
    For example, current deployment standards allow HEALY to 
spend only 200 days or less at sea annually, averaging 100 days 
less than our international partners. Additionally, the 
operating costs are significantly higher than non-military 
research icebreakers. As I have already stated, the HEALY is a 
capable ship. If she could be operated more cost effectively, 
she would be of even more value to the research community.
    Antarctic ship-based research and Palmer Station resupply 
depend primarily on two privately-owned vessels, the Laurence 
M. Gould and the Nathaniel B. Palmer. These ships are well 
equipped for their mission, and they operate at sea more than 
300 days annually at a daily rate of roughly $24,000 and 
$54,000, respectively.
    Operation of McMurdo and South Pole Stations require the 
annual delivery of fuel and supplies by sea. To fulfill this 
requirement, NSF has long depended on the U.S. Coast Guard 
POLAR SEA and POLAR STAR to break out of the thick ice in 
McMurdo Sound. The Coast Guard has performed this icebreaking 
mission in Antarctica with distinction for many decades, but 
with increasing difficulty in recent years.
    These two ships are at or close to the end of their service 
life, and have become extremely expensive to maintain and 
operate. In the past 4 years alone, NSF has spent roughly $29 
million on extraordinary maintenance. It is clear that the 
Polar icebreakers are becoming an increasingly fragile resource 
that could jeopardize the critical foreign policy and 
scientific objectives in the Antarctic, if we are unable to 
procure other icebreaker services.
    The overriding question is how to open the channel to 
McMurdo Station, so that year-round operations of the nation's 
McMurdo and South Pole Stations can continue. This year-round 
occupation is center to demonstrating the active and 
influential presence, which is the cornerstone of U.S. policy 
in Antarctica.
    As noted in the National Academy report in 2006, meeting 
this requirement is a significant national challenge.
    Accordingly, and after consultations with officials in OSTP 
and OMB, I wrote on May 31, 2006, to Dr. Anita Jones, in her 
role as chair of the NAS icebreaker study, as follows: "Given 
the rapidly escalating costs of government providers for 
icebreaking services and the uncertain availability of U.S. 
Coast Guard icebreakers beyond the next 2 years, it is NSF's 
intention to--[seek] competitive bids for icebreaking services 
that support the broad goals of the U.S. Antarctic Program. 
This competition will be open to commercial, government and 
international service providers."
    Based on our experience of working with other foreign and 
domestic icebreakers, I continue to believe that this is the 
most cost-effective means of meeting NSF's resupply 
requirements.
    Mr. Chairman, NSF's commitment to polar research, as well 
as its responsibility to manage the U.S. Antarctic Program, are 
unchanging. We only seek the flexibility to do so in the most 
cost-effective manner possible.
    I appreciate the opportunity to appear before the 
Subcommittee, and would be pleased to answer questions you may 
have. Thank you.
    Mr. Cummings. Thank you very much, Doctor.
    Mr. Treadwell?
    Mr. Treadwell. Thank you, Mr. Chairman and Members of the 
Committee. Good afternoon.
    On behalf of my fellow commissioners, thank you for the 
invitation to speak with you today.
    My testimony represents the view of the U.S. Arctic 
Research Commission, an advisory body to the executive branch 
and Congress. My statements here today do not necessarily 
represent the views of the administration.
    The commission establishes goals for Arctic research to be 
conducted by our nation and works to ensure that research 
programs and platforms, including vessels, laboratories and 
monitoring networks, are there to do the job. Arctic research 
cuts across many agencies, ties with many nations, advances 
basic knowledge, national security, human health, social and 
economic development and environmental protection.
    I could say much today about the valuable contributions our 
national icebreaker fleet provides to science. In fact, in this 
International Polar Year, there have been some significant 
discoveries and significant work done to advance American 
claims, sovereignty claims in the Arctic.
    But because we have both the director of the National 
Science Foundation and the commandant of the Coast Guard today, 
I am going to speak less about science and security needs, and 
I am going to draw from the part of my written testimony that 
addresses the economic issues we encounter, which should also 
be central to any national needs assessment on icebreaker 
capacity.
    As has been said, the administration is conducting a 
comprehensive interagency review on a wide range of Arctic 
issues. The tremendous homework to prepare for an accessible 
Arctic Ocean--the new Mediterranean once predicted by Arctic 
explorer Stefansson--has certainly begun.
    Mr. Chairman, the Alaska Purchase in 1867 made us an Arctic 
nation. Our ocean boundaries include more than the Atlantic and 
Pacific, and today's Arctic infrastructure for transport, 
energy, telecom, food production and defense is global 
infrastructure.
    The Arctic Ocean is becoming increasingly accessible in 
summer, and ice is receding faster than our climate models 
predict.
    With these factors in mind, the Arctic Council's eight 
nations, with indigenous participants and the global shipping 
industry, are conducting an Arctic Marine Shipping Assessment, 
which is due in 2009. Our deputy director, a former Coast Guard 
icebreaker captain, Dr. Lawson Brigham, is chair of this effort 
for the eight Arctic nations.
    AMSA will report that Arctic shipping is not a far off, 
future thing. It is a now thing. Shipping tied to specific 
resource development projects, tourism and serving the needs of 
Arctic communities is significant and growing.
    Winter access, of course, remains a challenge, except for 
the most capable of icebreaking ships. The question comes up: 
Will trans-Arctic seaways be as important to global commerce as 
the Panama and Suez Canals? Or will the Arctic Ocean continue 
more as a venue for shipping in and out of the Arctic itself, 
for tourism, local needs and to bring natural resources to 
market?
    Our work with AMSA suggests that we have to prepare for 
both possibilities. AMSA tells us that Arctic shipping will 
grow further when rules are certain and when products can be 
delivered competitively with other routes. And this means on a 
time and cost basis, not just on shorter distances.
    Assistant Secretary of State Dan Sullivan said at the 
Arctic Energy Summit last fall that shipping in the Arctic 
Ocean should be safe, secure and reliable. And icebreakers are 
essential in making that three-part goal a reality.
    The Committee is hearing again today about the importance 
of icebreakers to commerce in the Great Lakes. The wording of 
President Roosevelt's 1936 commitment to support shipping with 
icebreakers is not limited by geography. Icebreakers may 
eventually be needed to support commercial fishing--commercial 
shipping--in U.S. Arctic waters.
    The Arctic Research Commission has urged the government to 
move expeditiously in building and maintaining new icebreakers 
for the Arctic. That begins with a clear understanding of 
national needs and interests.
    We have been guided by the National Research Council's 
conclusion that two Polar Class ships are necessary. Polar 
Class icebreakers are the largest and most capable of ice-going 
ships.
    Changing ice conditions do not obviate the advantages of 
having Polar Class icebreakers. Scientists are predicting 
tougher operating conditions and higher sea states, due to the 
evolving nature of sea ice and changing wind and weather 
patterns.
    Mr. Chairman, Arctic icebreakers are expensive to build and 
to operate. As the nation assesses its needs, let me conclude 
by listing some of the billion-dollar, if not trillion-dollar, 
national interests that we encounter in looking at the science 
agenda for the country. And these very expensive national 
interests may help balance the cost to taxpayers of having 
these icebreakers.
    Number one is security and sovereignty. Admiral Allen has 
talked about the current missions of the Coast Guard that you 
need icebreakers to meet. It should also be noted, as was put 
in the record, that an accessible Arctic means newer, expanded 
routes for U.S. military sealift. And the commission believes 
polar icebreakers are an essential maritime component to 
guarantee this mobility exists.
    I mentioned what icebreakers are doing to help us expand 
the territory of the United States. The estimated value of the 
territory that we stand to gain under the law of the sea is 
over $1 trillion, according to the Department of State.
    Two, energy. Close to 15 percent of America's oil is 
produced on the North Slope of Alaska. Arctic shipping brings 
the infrastructure in, and as we move offshore and prove up 
close to $3 billion in recent leases, the potential need to 
ship oil and gas year-round from the American Arctic increases.
    Number three, transport and trade. If Arctic seaways become 
a venue for global trade, the economic impact, again, is in the 
billions of dollars. We have just been calculating a set of 
statistics, Mr. Chairman, that reveals that approximately 7,800 
ice-class ships in the world today, about 4.5 percent of the 
world shipping fleet. This percentage is expected to increase 
to 10 percent, as more ships are built for ice strength and 
polar use.
    Number four, mineral production. World-scale mines 
producing or on the drawing board in Alaska, Canada and Russia, 
reach that billion-dollar magnitude already. And some of these 
projects conduct, or expect to conduct, year-round Arctic 
shipping, and they are footnoted in my written testimony.
    Food production in the U.S. Arctic. The Bering Sea, where 
fishing vessels operate in or near the seasonal ice edge, is a 
billion-dollar industry. And ice-strengthened vessels are not 
only essential platforms for research into those fisheries and 
understanding what is going on in an ecosystem, but also 
fisheries oversight.
    Six, understanding of and response to climate change. I 
could highlight very much of the research going on with 
icebreakers, but I just want to make the point that the costs 
of--the cost our nation and other nations expect to incur in 
responding to climate change will also total in the trillions 
of dollars.
    Icebreaker-based research will help set and track our 
progress in meeting international climate goals. There are very 
many amazing things happening in the Arctic with the feedback 
loops there, where having this capability is a very important 
thing to expensive decisions made all over the rest of the 
world.
    Seven, there are Arctic values we cannot put a price tag 
on. Human lives in the Arctic and maintain a subsistence life 
style, practiced by these cultures for thousands of years. The 
need to understand and protect the marine mammals of this 
region is well established in U.S. law. And icebreakers play a 
key role in both objectives.
    Through support and research in all polar conditions, the 
U.S. Arctic Research Commission has urged the nation to 
maintain U.S.-owned, operated and commanded Polar Class 
icebreakers. And under the principle of freedom of navigation, 
global shipping can come to our doorstep, whether we invited it 
or not.
    Whether you envision the Arctic Ocean as a new seaway, or 
as simply an expansion of current shipping in and out of the 
Arctic, the time to prepare is now. We will be glad if we do, 
and sorry if we do not.
    Thank you very much.
    Mr. Cummings. Thank you very much.
    Mr. Weakley?
    Mr. Weakley. Thank you, Mr. Chairman.
    Every day, the 2,500 professional American mariners sailing 
on the Great Lakes risk their lives and their livelihoods to 
feed the economic engine that drives North America. They 
deserve the resources to ensure a safe and efficient passage. 
Without adequate Coast Guard resources, the gears of this 
economic engine come to a grinding halt.
    As president of the Lake Carriers' Association and vice 
president of the Great Lakes Maritime Task Force, I have the 
privilege of testifying on behalf of those mariners and U.S. 
flag vessel operators. We deliver iron ore, limestone, coal and 
jobs.
    I recently retired as a Coast Guard officer with more than 
23 years of combined active and reserve service--16 years on 
the Great Lakes. I can tell you without a doubt, that some of 
the active duty, reserves and civilians from the Lakes are the 
most dedicated public servants.
    There is, however, one thing that no amount of dedication 
can overcome: a lack of resources. Sailors need ships.
    Since 2004, the Lake Carriers' Association has asked for 
additional icebreaking vessels. We need one additional 140-
foot-long icebreaking tug, homeported in Duluth, Minnesota, and 
an additional seagoing buoy tender stationed in Charlevoix, 
Michigan.
    Just as roadways need to be plowed, our waterways need 
sufficient icebreaking to remain conduits for commerce. Just as 
cities use snowplows, and police, cruisers, to serve the 
public, our Coast Guard uses a mix of vessels. We need to 
provide nautical snowplows where the ice is and waterborne 
squad cars elsewhere.
    The Great Lakes form a maritime highway, moving as much as 
200 million tons of cargo a year. Sixty-six U.S. flag lakers 
moved 104 million tons in 2007. Of that total, 15 million tons, 
valued at $1.1 billion, were delivered during the ice season.
    The winter of 2007-2008 was considered normal. It was, 
nonetheless, the worst winter since 2003, and demonstrated the 
lack of icebreaking resources. Much of the Great Lakes was 
abandoned to the elements.
    The price tag for just three LCA members exceeded $1.3 
million in vessel damages. Lives were unnecessarily risked when 
the Coast Guard failed, because of inadequate resources to 
answer the call.
    Six Coast Guard cutters break ice in the 150-mile stretch 
of the Hudson River. By contrast, the entire Great Lakes have 
six icebreakers and two buoy tenders. Lake Michigan alone 
boasts more than 1,640 miles of coastline--the distance from 
Maine to Miami. Currently, the lake is home to one 140-foot-
long icebreaker, homeported in Green Bay. The equivalent East 
Coast shoreline has 90 Coast Guard vessels.
    The Coast Guard uses East Coast icebreakers primarily for 
security. This is not the best solution. It is the nautical 
equivalent of putting a blue light on a snowplow.
    First District 140s will spend an average of 157 hours 
breaking ice, compared to 870 hours for the average D-9 
icebreaker. Contrast the 101 hours the Great Lakes 140 spend on 
security with the 900 hours by D-1.
    Providing the Great Lakes with one additional icebreaker 
and one additional buoy tender would have a tremendous impact 
on our ability to meet the needs of commerce and not hinder the 
Coast Guard's performance in the rest of the country.
    I am not asking for parity, but I believe there should be 
more equity.
    Thank you.
    Mr. Cummings. Thank you all very much.
    I want to first of all go to you, Mr. Bement, and to you, 
Mr. Treadwell, regarding the POLAR SEA's most recent mission to 
the Arctic. Can either of you comment on why the vessel did not 
go further north than it did?
    Mr. Bement. Yes. Our procedure in working with the Coast 
Guard to allocate the--or not to exceed budget that we get from 
the Congress, which this past year was of the order of $54 
million--is that we provide to the Coast Guard a set of 
requirements, operating requirements.
    They, in turn, take those requirements and give us an 
operating plan, plus costs, for O-and-M costs as well as normal 
operating costs. We negotiate that plan and finally come up 
with a settlement, which then gets transferred to the Coast 
Guard for operations.
    In the case of the POLAR SEA and operating in the Arctic, 
most of those operations were to requalify crewmen for 
certification for operations.
    We felt at the time of our negotiations with the Coast 
Guard--and we came to agreement--that taking the POLAR SEA into 
deep ice was risky, because of the possibility of serious 
damage, so that it seemed to be more prudent to transfer 
crewmen who needed to be certified for ice operations to the 
HEALY, since the HEALY was operating in deep ice.
    Those crewmen did achieve their service on the HEALY. They 
did get certified. So, as an alternative set of conditions, 
that seemed to be the best decision we could arrive at, at that 
time.
    Mr. Cummings. So the--basically, because the POLAR SEA is 
old, you were concerned?
    Mr. Bement. Well, we usually have the POLAR SEA for backup 
service. And in many cases, you need two ships, because it is 
hard enough from season to season how thick the ice is going to 
be. And if the ice is sufficiently thick, you need a backup 
vessel. Also, if one of the ships gets damaged, you need the 
backup vessel to take over the operation.
    If the POLAR SEA, operating on its own in the Arctic, had 
gone into deep ice and had undergone serious damage that 
required lengthy maintenance, that would almost knock out all 
capability for icebreaking in the Antarctic for another year, 
or perhaps longer.
    So, we have been trying to not only deploy our assets, but 
also to protect our assets in the most prudent way, by not 
putting them in risk where other alternatives would serve. So, 
that was the basis for our decision.
    Mr. Cummings. Did you have a comment, Mr. Treadwell?
    Mr. Treadwell. We have talked to the Coast Guard and we 
have talked to the National Science Foundation, and I have no 
contradiction with what Dr. Bement has said.
    What I will say is that, if we are in a situation where we 
cannot put our Polar Class icebreaker into the ice, because we 
are afraid we will break it, that is probably prima facie 
evidence that we need a new icebreaker. And because we probably 
should have two backing it up, I think that particular episode 
is a very good piece of evidence for Congress to take action on 
this issue.
    Mr. Cummings. You know, as I listen to you often say that, 
I think that there are a lot of presumptions that are made. And 
if someone were to say that we might find ourselves--and this 
goes to all of your testimony, including you, Mr. Weakley--that 
in the United States, that we would find ourselves in the 
situation where we did not have the capacity that you are 
saying. People assume that we have the capacity.
    It is sort of like Hurricane Katrina. They assume a lot of 
assumptions. They say, this is the United States of America, 
the most powerful country in the world. And then, when 
something happens and you are waiting for the rubber to meet 
the road, you discover there is no road.
    And so, it sounds like what you all have just described--
and Dr. Bement, I do not know whether that is your normal 
demeanor, but you look like you are very sad in giving your 
statement.
    [Laughter.]
    That was----
    Mr. Bement. Not my normal demeanor. Just late in the day.
    Mr. Cummings. But I think we can--I think you all agree 
that we can do better as a country. We have got to do better.
    But let me just ask you just a few more questions.
    Mr. Bement, are the vessels currently available to the 
National Science Foundation, from the contract community and 
from foreign sources, capable of handling current ice--Europe 
agencies--current icebreaking needs to support research in the 
polar regions?
    Mr. Bement. We believe so, but we have not fully tested 
that.
    Two years ago, we put out a Request for Information. And as 
a matter of fact, it was through these RFIs that brought us the 
Krasin from Russia and the Oden from Sweden. And I should point 
out parenthetically, these are not agreements between the 
National Science Foundation and a private contractor. It is a 
government-to-government agreement.
    And in the case of the Swedish Oden, it also carries with 
it a science agreement. It is a science exchange, because the 
Oden is capable of doing science, and there is a very active, 
collaborative activity between U.S. scientists and Swedish 
scientists in working the Southern Ocean. And so, the Oden, 
while it is deployed in the Southern Ocean, is also there for 
science, as well as a break-in.
    I think that if we were to put out an RFI and ask those 
questions, based on the responses we got in the past, we would 
probably find expressions of interest, even private interest, 
that would build-to-lease icebreaker services over a period of 
time.
    Mr. Cummings. So, is it fair to say that NSF does not care 
where it gets its icebreaking services?
    Mr. Bement. Our only--our only mandate, by presidential 
directive, is to operate in the Antarctic and in the logistics 
support of the Antarctica Program in the most cost-effective 
way possible. And, of course, the most cost-effective way 
carries with it a lot of conditions and a lot of options. So, 
we explore all those options in determining how we can operate 
under least cost.
    Mr. Cummings. But you mentioned Sweden and Russia, did you 
say?
    Mr. Bement. Yes.
    Mr. Cummings. Were they cheaper?
    Mr. Bement. Four years ago, we did have the problem where 
the POLAR SEA was out of operation. As a matter of fact, since 
that time, we have invested $29 million in extraordinary 
maintenance in order to get the POLAR SEA back into operation. 
And that is why we call it a fragile resource.
    Now, at that time, it was agreed by the Coast Guard that we 
needed a backup vessel. And it was then that we put out an RFI 
and discovered that the Krasin was available. And so, we 
contracted with Russia. The Krasin is a GOCO vessel. It is 
government-owned, contractor-operated, as is the Oden. The Oden 
is also GOCO. It is government-owned, contractor-operated.
    So, for two seasons, we backed up the Coast Guard with the 
Krasin. And then, 2 years ago we shifted to the Oden, because 
there was an expression of interest on the part of Sweden to 
enter into a U.S.-Swedish science exchange in return for also 
using the icebreaker for break-in services. And that was a very 
generous offer that we took advantage of.
    So, that gave us the adequate primary break-in capability, 
and it allowed us to use the Coast Guard as the backup. And so, 
that is the way we have operated for the last two seasons.
    Mr. Cummings. Before we go to Mr. Oberstar, let me just ask 
you this. You said you spent $29 million? And over how much, 
over what course of time?
    Mr. Bement. It was over 4 years.
    Mr. Cummings. How long?
    Mr. Bement. Four years.
    Mr. Cummings. Four years.
    Mr. Bement. About 4 or 5 years. But I can give you more 
detailed information for the record, to give you all the 
details.
    But if you go back about 4.5 years ago, the POLAR STAR was 
operational. The POLAR SEA was not fully operational. It 
required extensive maintenance. So, we invested in getting the 
POLAR SEA back into operational capability.
    And at that time, the POLAR STAR then underwent some 
damage. And so, it was then that we put POLAR STAR in caretaker 
status. And it was the expectation, based on the repairs that 
we had made in the POLAR SEA, that it was good for another 7 or 
8 years, as long as we used the resource prudently.
    Mr. Cummings. And would you deem it prudent to contribute 
capital costs for the building of a new icebreaker?
    Mr. Bement. I think at this point, based on my 
understanding of the mission space, that the Coast Guard has, 
especially with the opening up of the Arctic over time, that it 
would be a prudent course of action.
    But my estimate or judgment would be that, even if the 
funds were approved tomorrow, it would take about 8 years to 
complete the construction of the vessel and make it 
operational. And we still have to--we still have to plan our 
course of action for the next 8 years, and that is where we 
need flexibility.
    Mr. Oberstar, the Chairman of the Transportation Committee?
    Mr. Oberstar. Thank you, Mr. Chairman, for enduring a long 
afternoon with interruption by votes and other diversions from 
our hearing.
    I apologize also to the witnesses for keeping you so late 
today. We have no control over the votes on the House floor. 
And I regret my own absence on other Committee business--
aviation and energy for transportation, a whole host of matters 
that I had to attend to.
    And so, I sort of left you an orphan here, Mr. Chairman.
    Mr. Cummings does a superb job as Chair of the Committee, 
and I enjoy being here with him and participating with him. And 
our Ranking Member, Mr. LaTourette, as well, who has really 
invested himself vigorously in the issues of the Committee.
    So much to start with.
    Mr. Weakley, thank you for your leadership on the Great 
Lakes, your work on behalf on Lake Carriers' Association, 
advocacy for icebreaking services, among many other 
contributions that you have made. And I think those charts you 
showed on the screen are very compelling.
    We have at long last the replacement, Mackinaw, and in 
support from the icebreaking tugs and buoy tenders. But this 
past winter, when there was a need for icebreaking capability 
on Lake Superior--at the beginning of the spring shipping 
season there was still a great deal of ice, slush ice, heavy 
ice, shore ice--the Mackinaw was not available to come 
upstream, up-lake and serve in there. I know vessels were 
supposed to be supported by these icebreaking tugs, suffered $1 
million, $1.5 million in damages, I recall.
    What was the problem? We had the Coast Guard here earlier 
this year, and I asked the question. They gave me this vague, 
non-responsive answer, that they were busy on other business, 
but no other business that I could find from lake carriers in 
the lower lakes.
    So, what is your--and I am not putting you in a position of 
criticizing the Coast Guard. But what has happened there? What 
is going on?
    Mr. Weakley. Thank you for that question, Mr. Chairman.
    I think, listening to the commandant's testimony earlier, 
something that he may not have mentioned is that there is a 
natural tension between icebreaking and buoy tending. As you 
are finishing your buoys, you have got to start icebreaking, 
and the vessels cannot do both at the same time. And equally 
important, they cannot be in two places at one time.
    As recently as the late 1980s, early 1990s, there were as 
many as five 180-foot buoy tenders on the Great Lakes. They 
were replaced with two 225s. If you look at their records, the 
Coast Guard claimed that that would work, because the 225s and 
the Mack were going to be more efficient.
    The fact of the matter is, the 225s, I believe, are the 
most unreliable platform in the Coast Guard fleet. They were 
not designed for ice operations. They have a tendency to blow 
hub seals and leak oil in the water, and quite frankly, have 
been an extreme disappointment. They were----
    Mr. Oberstar. I have seen those in operation, and I am 
disappointed with them, too. That is why I pressed Mr. Obey, my 
colleague to the east, advocated so vigorously for the 
replacement, a major icebreaker, the Mackinaw. But we saw how 
ineffective those harbor icebreakers are, those--they are 
really tugs.
    They do not have the capability to keep a lane--they might 
be able to keep it open for a short period of time, but you get 
a 40-below cold snap, as happens, and that slush ice freezes 
down 18, 20 inches or more--to three feet, even.
    Mr. Weakley. Yes, sir. What we have seen is, the 225s are 
effective at maintaining a track once the track is established 
by a more capable icebreaker. They are not maneuverable. The 
140s are more effective in the river system and at close-in 
support.
    And the fact of the matter is that there just are not 
enough vessels to go around. And even the 140s are at the end 
of their service life, and we have seen a tremendous failure 
rate from those in the past 3 to 4 years.
    I will say that the Coast Guard is on the right track at 
rehabbing some of those boards and some of the engineering 
plant of the 140s. It is a good hull. Those boats have been in 
fresh water most of their service.
    I think we could do more with as little as two more 
vessels. We have been making the argument for at least 4 years, 
and have been told that--not to worry, that the Coast Guard 
will be there to answer the call when we ask for the resource.
    I think this winter proved beyond anybody's doubt, that 
they were not able to answer the call. They send one East Coast 
icebreaker to support Canadian operations in the Seaway, it did 
not benefit the U.S. fleet or the upper Great Lakes by moving 
that U.S. breaker into Canada.
    Mr. Oberstar. We have much more traffic on the Lakes inter-
lake at those times of year than through the Seaway. Certain 
vessels need to get out there----
    Mr. Weakley. Right.
    Mr. Oberstar. --grain and international cargo. But--I mean, 
in international trade.
    But it seems to me, I just have this feeling, you know, 
looking at that number and security, 900 hours on security on 
the East Coast, 101 on the Great Lakes, icebreaking, 870 hours 
on the Great Lakes, 157 on the East Coast.
    I think the Coast Guard has been taken captive by the 
Department of Homeland Security, been taken hostage. I do not 
know what is happening, but they are messing up the resources 
for--in the name of security, and neglecting the purpose of 
keeping shipping lanes open for the purpose of national 
economic interests.
    Mr. Weakley. And from my perspective, I could not think of 
a worse law enforcement platform than a tugboat. They are slow. 
They are a good communication package. They have some 
seakeeping capability. Certainly not nearly as capable as a 
patrol boat, an 87-footer, or the new Security Class Cutters.
    The Coast Guard has gotten a significant increase in the 
number of vessels since 9/11, everywhere expect the Great 
Lakes. I think we are the only area where the number of vessels 
is decreasing, not increasing. And we also have a security 
mission on the Great Lakes, where the appropriate platform 
there is an ice-capable vessel.
    Mr. Chairman, I could not agree more with what you said.
    Mr. Oberstar. Is the Mackinaw a sufficient vessel for 
icebreaking duty on the Great Lakes?
    Mr. Weakley. I have been surprisingly impressed with the 
capability of the Mackinaw. The Mackinaw cannot do it all. It 
cannot be in both--in more than one place at one time. And as 
the skipper of the Mackinaw once said to me, his biggest 
concern is the health of the 140s.
    We have--for the past 3 years, up until this year, I have 
been saying we have been one casualty away, of the Coast Guard 
resources, of having a catastrophe. This winter proved exactly 
what I had been saying, that there are not enough resources, 
and they are inadequate to maintain shipping lanes.
    And if you look at the 30-year time span, this was a normal 
winter. This was not a bad winter. I fear the day when we have 
a winter like we did in 2003 or 1993.
    Mr. Oberstar. Or 1964 or 1968.
    Mr. Weakley. Yes, sir.
    Mr. Oberstar. We may not get back to global climate change, 
but it seems to me, the glacier makes a return every November 
and December in the northland. And we need that.
    Mr. Chairman, the pressures of moving commodities from the 
upper lakes to the lower lakes are growing. We are seeing 
greater shipments, Powder River Basin low-sulfur coal by 
trainload to the lake head in Duluth and Superior, huge 
unloading facilities. That commodity has to move to lower lake 
ports to fuel Detroit Edison, Con Edison, Cleveland.
    The iron ore from the northland, from my district and from 
the Upper Peninsula of Michigan, Mr. Stupak's district, is in 
ever-increasing demand. For the first time since the 1970s, we 
are seeing a resurgence in steelmaking.
    And I know, Mr. Chairman, you recall when you had Sparrows 
Point steelmaking in Baltimore, and the shipbuilding in 
Baltimore. Well, it is coming back in this country. The price 
is going up.
    Shipments of iron ore are increasing in greater amounts. 
And we need that icebreaking capability. We cannot ship enough 
ore during the summer, especially with the low water levels on 
the Great Lakes. And the Corps of Engineers has not been 
dredging the channels and the harbors, because they have 
shifted their resources elsewhere.
    We had high water on the Great Lakes for the 20-year period 
from the early 1960s through the mid-1980s. And now, we have 
the need for dredging on the channels and the harbors, and our 
taconite ships are making three extra--extra voyages are going 
out 7,500 tons light--making three extra voyages per vessel, 
per season. That is thousands and millions of additional 
dollars in transportation costs to the steel industry, because 
we do not have the capability on the Lakes.
    And in addition to that, we do not have icebreaking 
sufficiently up there. Our economy is hurting. We just cannot 
afford that.
    So, I think we need to revisit the issue of the smaller-
size support icebreaking capability for the Mackinaw on the 
Great Lakes.
    Now, Dr. Bement, our former Chairman, Mr. Young, asked me 
to raise with you the Arctic regional research vessel that 
would be homeported in Alaska, operated by the university at 
Fairbanks. Since your 2009 budget does not include second year 
funding for the vessel, one wonders why.
    And he also asked whether final design review would be 
completed and approved in time for the balance of those funds 
to be included in the 2010 fiscal year.
    Mr. Bement. The current policy of the National Science 
Board is that projects must complete a final design review 
before they are submitted for the president's budget. Anything 
that can be done to accelerate the final design review, of 
course, would be very advantageous, because timing is not 
favorable.
    On the other hand, there is carryover for the amount of 
funding in the account. And it would be possible to expend 
those funds in 2009.
    The key thing right now is to be sure that we get a healthy 
budget for ARRB in the 2010 budget, so that if we are able to 
procure the long lead items out of the $34 million, and at the 
same time secure a shipyard and get it scheduled in the 
shipyard, which is still yet to be determined, now, we would 
then be able to start construction at a full scale at the 
beginning of 2010, and go on a 2-year construction schedule and 
have it ready for deployment in 2012.
    And so, that seems to be a reasonable expectation at this 
point. The main thing is that we have to continue to support 
the vessel and support the budget for the vessel, and to keep 
it on the track that we are on now.
    Mr. Oberstar. Well, thank you. I will be sure Mr. Young 
gets the transcript of--gets the transcript of your remarks.
    I noticed with interest in your submitted testimony, your 
delivered testimony, use of a contractual arrangement with a 
Swedish icebreaker for your--is that for the Antarctic 
operations?
    Mr. Bement. It is.
    Mr. Oberstar. What is the shaft horsepower of the vessel? 
Is it one icebreaker, or more than one?
    Mr. Bement. The actual specifications for the icebreaker I 
believe are in my written testimony, but we can provide it for 
the record.
    But generally speaking, the weight and the shaft horsepower 
for the Oden and POLAR SEA are comparable. The main difference 
is that the POLAR SEA also has turbine power, so that when they 
back and ram, they can develop additional horsepower--of 
course, with adequate amount of fuel, it is very fuel-intensive 
to do that--to break ice.
    Now, the Oden does it a slightly different way. They use 
water spray lubrication. They bring the nose up on the ice and 
use the weight of the vessel to crush the ice.
    Mr. Oberstar. Crush the ice, yes.
    Mr. Bement. And they can also move their ballast back and 
forth, so they can rock the ship in order to deal with deep 
ice. So, it is a different design.
    Mr. Oberstar. Is there a significant difference in the 
quality of ice in the Antarctic, the Baltic and the Arctic?
    Mr. Bement. Well, I am not an ice expert, so I could 
probably shoot myself in the foot in answering that question. 
But ice has so many different crystalline forms, that even in 
any one particular region, depending on the depth, the pressure 
of the ice, the temperature record, and so forth, the ice is 
going to be different.
    Mr. Oberstar. In the Bay of Bothnia, I know that vessels 
there, shipping encounters ice of 20-, 30-foot thickness or 
greater.
    Mr. Bement. Yes.
    Mr. Oberstar. Sometimes as much as 60-foot thickness. And 
it is a harder, sharper ice, seafarers tell me, than compared 
to the Antarctic ice. And the Arctic has also different 
characteristics.
    The Finns built the first nuclear-powered icebreaker. They 
had to give it to the Soviet Union as war reparations after 
World War II. And then they continued to build the class of 
vessels. And they also build a standard, that is non-nuclear 
vessel, the most powerful of which is the Urho, built at the 
Wartsila shipyards in Helsinki.
    And that had--that has--it is still in operation--65,000 
shaft horsepower capability. And they also developed the air 
skin around the vessel to slip more readily through the ice and 
the ability to ship 400, 500 tons of water from one side to 
another, to roll through and crush, as well as break ice.
    Did you give any consideration to working with the Finns 
on----
    Mr. Bement. Well, let me----
    Mr. Oberstar. --icebreaking needs?
    Mr. Bement. Thank you for bringing up that information. It 
turns out that the Oden was built by the Finns. So, it could be 
a sister ship to the one you are describing.
    Mr. Oberstar. Oh. Oh, well, very good. They are the master 
ship--icebreaker----
    Mr. Bement. That is right.
    Mr. Oberstar. --icebreaking ship builders.
    Mr. Bement. The difference--a major difference between the 
Oden and the POLAR SEA--and the POLAR STAR, for that matter--is 
that the Oden can use fresh water for ballast.
    The POLAR SEA uses fuel for ballast. That fuel has to come 
out of our McMurdo stock whenever the Sea or the Star operates 
in McMurdo, so there is a million gallons. And with the price 
of fuel, even at the pump, that is $4 million. And you can use 
your imagination what fuel costs after you get it all the way 
down to McMurdo.
    And that is an incremental cost that we pay to the Coast 
Guard that is over and above the appropriated funds that we 
provide them for readiness to serve and for operation and 
maintenance.
    So, that is where the difference really comes in, in using 
the Oden versus the POLAR SEA or the POLAR STAR.
    The other big difference is that, because the Coast Guard 
icebreakers are military ships and have multiple missions, they 
have a much larger crew strength. Their manning is about 134 
crew, officers and crew, compared with 18 on the Oden.
    And it is important to keep in mind that, as a contractor-
operated vessel, these people are career icebreakers. They have 
served for years, so they are highly professional. And that is 
in comparison with the crew on the POLAR SEA, where the Coast 
Guard has to spend an enormous amount of time and effort to 
continually requalify crew, because of the turnover in the 
manning of the icebreaker.
    Now, there are many other differences that make the Oden a 
very good bet for the taxpayer. First of all, it has much more 
scientific berthing for scientists, and it also has abundant 
laboratory space and full instrumentation for oceanographic 
research. And that is a reason why it is of great interest to 
us as a science vessel.
    So, we not only get the service of the Oden--on a fixed-
price basis, incidentally--if anything breaks on that ship, or 
any maintenance has to be done, or if there are any other 
operating expenses that were not anticipated, it is all covered 
under the fixed price, under the contract. We do not have to 
pay that additional cost.
    Mr. Oberstar. What you are really saying is, you do not 
really need to have an NSF-owned icebreaker. It is probably 
lower cost and more efficient to stay with the current 
arrangement.
    Mr. Bement. The current arrangement is a good one, because 
we are only paying for the time we use. In other words, if it 
is only in use for 2 months, we only pay for 2 months of the 
use of the vessel.
    That is much better than owning a vessel for a short season 
down in the Antarctic. And that is a reason why having 
flexibility to look at various types of icebreaking providers--
and in many cases we will have to fall back on the Coast Guard, 
there is no doubt about it, if the need arises and we cannot 
get other bidders.
    But when we can get other bidders, it is much better than 
the current arrangement where we have to pay for the entire 
year, for the vessel, for the maintenance, the crew costs, the 
operation--I mean, the training of the crew, the readiness to 
serve--when we are only using it for a relatively short season.
    Mr. Oberstar. I certainly think, Mr. Chairman, the Coast 
Guard needs a replacement for the POLAR SEA and the POLAR STAR. 
I recall when the POLAR SEA was launched--I had just begun my 
service on the Coast Guard Subcommittee--put out to sea, went 
up to the ice off Alaska and got stuck.
    I actually called the chairman of Wartsila Shipyards, 
Tankmar Horn, and I said, send out the Urho and rescue our 
Coast Guard icebreaker. We had a great news story. They did not 
want to embarrass the Coast Guard.
    But I think they need--they, the Coast Guard--need much 
improved capability. We certainly need better service on the 
Great Lakes.
    I think the research work done in the Antarctic is of 
critical importance, especially in this era of global climate 
change. Many people are sticking their head in the snow, 
thinking it is not with us. It is happening. And we need to 
know more about the forces at work. And your research 
initiatives are leading us in that direction.
    Mr. Bement. Thank you.
    Mr. Oberstar. Thank you, Mr. Chairman. I need not prolong 
this--many more questions, as you know I always have. But I 
think we could--I could suspend there.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Richardson?
    Ms. Richardson. Thank you, Mr. Chairman.
    I would like to build a little bit upon what our Chairman 
Oberstar was just referencing, regarding the foreign flag 
ships.
    You know, someone taught me an old saying. They said, if 
you have to make a decision, do the old-fashioned Ben Franklin, 
and do a positive and a negative.
    And I was just a little curious of why were we supporting 
really another country's being able to build up their fleet, 
and have, as Mr. Oberstar has shared, you know, can do it all, 
when we clearly have a fleet that is not adequate? Why wouldn't 
we be putting the money into our own fleet?
    Mr. Bement. Well, I am very sensitive to that point of 
view. And I do not take any issue with the question. I just do 
not have a very good answer for it.
    Ms. Richardson. Well, I would like to suggest that we may 
want to consider, when I was referencing the kind of Ben 
Franklin pros and cons, the contractor idea, you know, sure, 
you might save a few bucks.
    But for me, the plus and minuses for the Coast Guard, 
number one, we have better security, because from what I 
understand on our ships, we have more people who are actually 
on the vessel. And by having the Coast Guard, they are not only 
doing the icebreaking, but they are taking care of other tasks.
    And if we were to pay for those independently, and you 
include the cost of icebreaking, it actually ends up costing us 
more.
    The second point is jobs--I mean, if we are actually 
building these.
    Third would be a faster response, if we have a national 
disaster. This gentleman just talked about the fact that, you 
know, it was said, help is coming.
    Well, I have got to tell you. If someone in Finland or 
Sweden has to choose between their issue and ours, and we have 
a national disaster, they are going to their home first. They 
are not coming to us.
    And then, the whole building and maintenance of our own 
fleet. We need to maintain some of our own independence, 
because God forbid, we do not want to be stuck with having no 
fleet, or a fleet that is not really appropriate, if we 
unfortunately come into a time of war. And maybe now we no 
longer have that relationship, and they are not willing to work 
with us.
    So, Mr. Chairman, I would just like to really push back 
that, as we consider--and I have been listening to the thoughts 
of the discussion of the hearing thus far today. It seems like 
there is a will to have these additional fleets on our end.
    But I would just like to really push the point for the 
reasons that I just gave. We need to be more self-dependent, 
independent ourselves, and not relying upon some other country 
to bail us out.
    I do not think that that is what America is about. And I do 
not think, if you had a choice, that would be probably where 
you would want to go.
    Do you have a comment on that?
    Mr. Bement. Well, I think, again, that is a matter of 
national policy. And the National Science Foundation is 
probably the last agency that ought to be involved in those 
kind of determinations.
    Our focus is to carry on frontier science and to do it in 
the most cost-effective way possible.
    And I think you rightly pointed out that the mission space 
for icebreaking is suddenly expanded. If I look at the 
Congressional Research Service report, they had five particular 
missions--five specific missions for icebreaking--and we were 
bullet number one. But there were four bullets underneath. And 
those are totally out of the scope of the National Science 
Foundation.
    So, that is the only way I could answer your question. But 
again, I am very sympathetic to your point of view.
    Ms. Richardson. Well, not only sympathetic. We might make a 
little money, because then we could contract ourselves. That 
would be a novel idea for us.
    Mr. Bement. And I might point out, incidentally----
    Ms. Richardson. I am sorry?
    Mr. Bement. And I might point out, incidentally, that the 
National Science Foundation is not the only federal agency 
leasing ships from the Swedish.
    Ms. Richardson. Oh, I understand.
    Mr. Bement. The Department of Defense is leasing--they have 
leased a submarine and they are leasing a merchant vessel from 
the Swedes to help in their operations in the Middle East.
    So, you know, the military in-service sealift command is 
also involved in leasing vessels from other countries in the 
world, and----
    Ms. Richardson. Sir, I have down to 30 seconds. I did not 
mean to insinuate that you are not the only agency that is 
doing it. It is just--it is something I do not particularly 
happen to agree with, and would prefer to see us doing less of.
    Mr. Chairman, would you allow me 30 seconds to hear Mr. 
Weakley's comments on that question?
    Mr. Cummings. Yes.
    Ms. Richardson. Thank you, sir.
    Mr. Weakley. May I? There is no question, I represent 
American sailors. I think we have a proud tradition. We have a 
proud tradition, not just of going to sea, but I think we build 
the finest ships in the world. I think the U.S. Merchant Marine 
and our shipbuilding capability won World War II.
    I would be happy to take that mission. I think the labor 
unions that I work with sitting behind me would welcome the 
opportunity to man those ships. If it is a mission that the 
Coast Guard cannot handle and it is seen as more of a private 
sector, we are ready to step up and meet that challenge.
    Ms. Richardson. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    I am not going to hold you all any longer.
    And I was just thinking about, just listening to all of 
this, though, and I was just saying, we can do better. As a 
nation, we can do better. And we are going to try to find--
figure out, by working with the Coast Guard--trying to figure 
out how we can increase our capability, so that when--so that 
we are not in the position that we are in.
    And I think a lot of the information that you all have 
provided us is just extremely valuable. And I think, basically, 
you have put the--you sounded the alarm that we have problems.
    And I think this is our watch, all of ours. And under our 
watch, I think we can either turn our heads and act like there 
is not a problem and pass it on to somebody else, or we can try 
to address it ourselves.
    And I think it is our duty and responsibility to try to do 
that. And so, we will continue to look into this.
    But I want to thank you all for your patience. I understand 
you all have busy schedules. And again, the length of the 
hearing was just totally out of our control. I try to always be 
very, very, very aware and understanding of people's schedules. 
Time is valuable. As I often say, we have one life to live. 
This is no dress rehearsal. And this is that life. And every 
second is valuable.
    And so, thank you very much. We will have some follow-up 
questions for you. And this hearing is called to----
    Ms. Richardson. Mr. Chairman?
    Mr. Cummings. Yes.
    Ms. Richardson. I am sorry. Could I make one other point--
--
    Mr. Cummings. Yes.
    Ms. Richardson. --that I think was not as clear. I 
apologize.
    Mr. Cummings. Yes.
    Ms. Richardson. I did not in any mean want to suggest that 
I would not want the Coast Guard to continue doing the work. 
What I was saying is that we could actually get--have a great 
fleet ourselves and so some work for Finland and Sweden and 
everybody else. So, I wanted to make sure we kept them in the 
driver's seat.
    Thank you very much, Mr. Chairman.
    Mr. Cummings. No, I--and I agree with you. I guess I just 
have--I have said it many times, that this is a great country. 
And a lot of our authority has, throughout the world, has come 
from our moral standing. But it has also come from our 
innovation.
    And I think when we hear all of this, it is just a reminder 
that we have got to be not only innovative, but we have got to 
build on what we already know, and not get comfortable, because 
I think one of the problems is that we are depending more and 
more upon other nations, I mean, out of necessity. And I 
understand that.
    And one of the things that we have constantly said to the 
Coast Guard is that we want you to be able to carry out all of 
your missions. And we have got to get you the resources and the 
personnel.
    In this past budget we increased their personnel by 1,500. 
There is only, as you well know, only about 41,000 people in 
the Coast Guard, a little bit over 41,000. So, we are trying to 
do that.
    But again, we have got to shed light on all of these 
situations where there may be a weak link, because keep in 
mind, where the weak link is, is where the chain breaks. And 
so, we do not want any broken chains.
    With that, this hearing is called to a close.
    [Whereupon, at 6:15 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








</pre></body></html>
